APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(January 7, 2020) . . . . . . . . . . . . . App. 1
Appendix B Final Judgment in the United States
Court of Appeals for the Seventh
Circuit
(January 7, 2020) . . . . . . . . . . . . App. 55
Appendix C Order to File Briefs in the United
States Court of Appeals for the
Seventh Circuit
(July 1, 2019). . . . . . . . . . . . . . . . App. 57
Appendix D Opinion in the United States Court of
Appeals for the Seventh Circuit
(January 7, 2019) . . . . . . . . . . . . App. 59
Appendix E Final Judgment in the United States
Court of Appeals for the Seventh
Circuit
(January 7, 2019) . . . . . . . . . . . . App. 77
Appendix F Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois,
Eastern Division
(December 1, 2017) . . . . . . . . . . . App. 79

ii
Appendix G Judgment in a Civil Case in the
United States District Court for the
Northern District of Illinois, Eastern
Division
(December 1, 2017) . . . . . . . . . . . App. 90
Appendix H Order Granting Petition for Rehearing
En Banc in the United States Court of
Appeals for the Seventh Circuit
(March 6, 2019) . . . . . . . . . . . . . . App. 92
Appendix I State of Illinois Clemency Certificate,
dated January 12, 2015, filed as
Exhibit B to Defendants’ Motion to
Dismiss Plaintiff’s Complaint in the
United States District Court of the
Northern District of Illinois, Eastern
Division
(August 25, 2017) . . . . . . . . . . . . App. 93
Appendix J Petition for Rehearing En Banc in the
United States Court of Appeals for the
Seventh Circuit
(February 4, 2019) . . . . . . . . . . . App. 96
Appendix K Supplemental Brief of Johnnie Lee
Savory in the United States Court of
Appeals for the Seventh Circuit
(July 15, 2019). . . . . . . . . . . . . . App. 115

iii
Appendix L Appellees-Defendants’ Supplemental
Brief Regarding the Bearing of the
Supreme Court’s Opinion in
McDonough v. Smith in the United
States Court of Appeals for the
Seventh Circuit
(July 15, 2019). . . . . . . . . . . . . . App. 140

App. 1

APPENDIX A
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 17-3543
[Filed January 7, 2020]
__________________________
JOHNNIE LEE SAVORY,
)
Plaintiff-Appellant,
)
)
v.
)
)
WILLIAM CANNON, SR.,
)
as special representative for )
CHARLES CANNON, et al.,
)
Defendants-Appellees.
)
__________________________ )
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-00204 — Gary Feinerman, Judge.
__________________
ARGUED SEPTEMBER 24, 2019 —
DECIDED JANUARY 7, 2020
__________________

App. 2
Before WOOD, Chief Judge, and EASTERBROOK,
KANNE, ROVNER, SYKES, H AMILTON, BARRETT ,
BRENNAN, SCUDDER and ST. EVE, Circuit Judges.*
ROVNER, Circuit Judge. Johnnie Lee Savory spent
thirty years in prison for a 1977 double murder that he
insists he did not commit. Even after his release from
prison, he continued to assert his innocence. Thirtyeight years after his conviction, the governor of Illinois
pardoned Savory. Within two years of the pardon,
Savory filed a civil rights suit against the City of Peoria
(“City”) and a number of Peoria police officers alleging
that they framed him. The district court found that the
claims accrued more than five years before Savory filed
suit, when he was released from custody and could no
longer challenge his conviction in habeas corpus
proceedings. Because the statute of limitations on his
claims is two years, the district court dismissed the suit
as untimely. Savory appealed to this court, and the
panel reversed and remanded after concluding that the
claim was timely under Heck v. Humphrey, 512 U.S.
477 (1994), because it accrued at the time of Savory’s
pardon, within the two-year limitations period. We
granted the defendants’ petition for rehearing en banc
and vacated the panel’s opinion and judgment. We
again conclude that Heck controls the outcome here,
and we reverse and remand for further proceedings.

*

Judge Flaum took no part in the decision to consider this case en
banc, nor in this court’s subsequent en banc consideration and
disposition.

App. 3
I.
In reviewing a grant of a motion to dismiss, we are
required to assume that the facts alleged in the
complaint are true, but we offer no opinion on the
ultimate merits because further development of the
record may cast the facts in a light different from the
complaint. Dobbey v. Illinois Dep’t of Corr., 574 F.3d
443, 444, 447 (7th Cir. 2009). See also Tobey v.
Chibucos, 890 F.3d 634, 645 (7th Cir. 2018) (on a
motion to dismiss, a court must accept as true the wellpleaded factual allegations in the complaint). In
January 1977, Peoria police officers arrested fourteenyear-old Savory for the rape and murder of nineteenyear-old Connie Cooper and the murder of her
fourteen-year-old brother, James Robinson. According
to the complaint, these officers subjected Savory to an
abusive thirty-one hour interrogation over a two-day
period. The officers fabricated evidence, wrongfully
coerced a false confession from the teen, suppressed
and destroyed evidence that would have exonerated
him, fabricated incriminating statements from alleged
witnesses, and ignored ample evidence pointing to
other suspects. No legitimate evidence implicated
Savory. His arrest, prosecution and conviction were
based entirely on the officers’ fabricated evidence and
illegally extracted false confession.
Savory was tried as an adult in 1977 and convicted
of first degree murder. After that conviction was
overturned on appeal, he was convicted again in 1981.
He was sentenced to a term of forty to eighty years in
prison. After Savory exhausted direct appeals and postconviction remedies in state court, he unsuccessfully

App. 4
sought federal habeas corpus relief. He repeatedly
petitioned for clemency and also sought DNA testing.
After thirty years in prison, he was paroled in
December 2006. Five years later, in December 2011,
the governor of Illinois commuted the remainder of
Savory’s sentence. That action terminated his parole
(and therefore his custody) but left his conviction
intact. On January 12, 2015, the governor pardoned
Savory of the crime of murder,1 and declared that
Savory was “acquitted and discharged of and from all
further imprisonment and restored to all the rights of
citizenship which may have been forfeited by the
conviction.” The pardon was granted with an “Order
Permitting Expungement Under The Provisions Of 20
ILCS 2630/5.2(e).” R. 71-3. On January 11, 2017, less
than two years after the pardon, Savory filed suit
against the City and the police officers.
That suit asserted six claims under 42 U.S.C.
§ 1983, five against the individual defendants and one
against the City. The five counts against the individual
defendants alleged that they: (1) coerced a false
confession from Savory in violation of the Fifth and
Fourteenth Amendments; (2) coerced a false confession
from Savory in violation of his due process rights under
the Fourteenth Amendment; (3) maliciously prosecuted
Savory, depriving him of liberty without probable cause
in violation of the Fourth and Fourteenth

1

The governor simultaneously pardoned Savory of the crime of
possessing contraband in a penal institution, a crime for which he
was convicted in 1994.

App. 5
Amendments;2 (4) deprived Savory of his right to a fair
trial, his right not to be wrongfully convicted, and his
right to be free of involuntary confinement and
2

Savory acknowledged that, at the time of filing his complaint, our
circuit law held that a “so-called federal malicious prosecution
claim” was not actionable under section 1983. R. 1, at 20 n.1. He
nevertheless pled Count III under the Fourth and Fourteenth
Amendments in order to preserve it pending the outcome of the
Supreme Court’s consideration of Manuel v. City of Joliet, Ill., 590
F. App’x 641 (7th Cir. 2017). The Court subsequently held that
“the Fourth Amendment governs a claim for unlawful pretrial
detention even beyond the start of legal process.” See Manuel v.
City of Joliet, Ill., 137 S. Ct. 911, 920 (2017). The Court remanded
the case for consideration of the elements of the claim and the
accrual date. Acknowledging that courts are to look first to the
common law of torts in defining the contours and prerequisites of
a section 1983 claim, the Court declined to resolve the dispute
between the parties as to the most analogous common-law tort.
The Court also noted that common-law principles guide rather
than control the definition of section 1983 claims, and that “[i]n
applying, selecting among, or adjusting common-law approaches,
courts must closely attend to the values and purposes of the
constitutional right at issue.” 137 S. Ct. at 921. Manuel argued
that the claim resembled malicious prosecution and the defendant
likened the claim to false arrest. We subsequently held that the
nature of Manuel’s claim was detention without probable cause,
even though Manuel was being held by authority of a judicial
decision that probable cause existed. Manuel had asserted that the
police hoodwinked the judge by falsely asserting that pills he
possessed contained unlawful substances. Manuel was released the
day after the prosecutor dropped the charges. Because his
detention was judicially authorized, we invoked the holdings of
Preiser v. Rodriguez, 411 U.S. 475 (1973), and Heck, and held that
the claim would accrue when the detention ended. Manuel v. City
of Joliet, Ill., 903 F.3d 667, 670 (7th Cir. 2018). In Savory’s case,
the district court did not separately analyze the accrual date for
Count III. Now that the Supreme Court has resolved Manuel, the
accrual date for Count III should be considered on remand.

App. 6
servitude in violation of the Thirteenth and Fourteenth
Amendments; and (5) failed to intervene as their fellow
officers violated Savory’s civil rights. In the sixth count,
Savory alleged that the City’s unlawful policies,
practices and customs led to his wrongful conviction
and imprisonment in violation of section 1983. Savory
also brought state law claims against the defendants
but later conceded that those claims were untimely
under the state’s one-year statute of limitations. Those
claims are not part of this appeal.
The defendants moved to dismiss Savory’s section
1983 claims on several grounds, but the district court
addressed only one: the statute of limitations. The
court recognized that, under Heck v. Humphrey, 512
U.S. 477 (1994), Savory could not bring his section 1983
claims unless and until he obtained a favorable
termination of a challenge to his conviction. The parties
agreed that the relevant statute of limitations required
Savory to bring his claims within two years of accrual,
but the parties disagreed on when the Heck bar lifted.
Savory asserted that his claims did not accrue until he
received a pardon from the Illinois governor on
January 12, 2015, rendering his January 11, 2017 suit
timely. The defendants asserted that the Heck bar
lifted when Savory’s parole was terminated on
December 6, 2011, making his claims untimely. The
district court concluded that the defendants had the
better view of Heck and dismissed the claims with
prejudice. Savory appeals.

App. 7
II.
We review de novo a Rule 12(b)(6) dismissal on
statute of limitations grounds. Tobey, 890 F.3d at 645;
Amin Ijbara Equity Corp. v. Village of Oak Lawn, 860
F.3d 489, 492 (7th Cir. 2017). For a section 1983 claim,
federal courts look to state law for the length of the
limitations period. McDonough v. Smith, 139 S. Ct.
2149, 2155 (2019). See also Owens v. Okure, 488 U.S.
235, 249–50 (1989) (“where state law provides multiple
statutes of limitations for personal injury actions,
courts considering § 1983 claims should borrow the
general or residual statute for personal injury actions”).
In Illinois, the applicable limitations period is two
years. Tobey, 890 F.3d at 645. However, the “accrual
date of a § 1983 cause of action is a question of federal
law that is not resolved by reference to state law.”
Wallace v. Kato, 549 U.S. 384, 388 (2007) (emphasis in
original). Instead, certain aspects of section 1983
claims, including accrual dates, are “governed by
federal rules conforming in general to common-law tort
principles.” Id. Under those common-law tort
principles, claims accrue when a plaintiff has a
complete and present cause of action. Id.; McDonough,
139 S. Ct. at 2155. So we must determine the first
moment at which Savory had a complete and present
cause of action.
A.
We begin our analysis of the accrual date for
Savory’s claims with Heck, which addressed whether
and when a state prisoner may challenge the
constitutionality of his conviction in a suit for damages
under 42 U.S.C. § 1983. Heck, 512 U.S. at 478. While

App. 8
Heck was serving a fifteen-year sentence for
manslaughter, he brought a section 1983 action against
two prosecutors and a state police inspector asserting
that they engaged in an unlawful investigation that led
to his arrest, that they knowingly destroyed
exculpatory evidence, and that they caused an unlawful
voice identification procedure to be used at his trial.
512 U.S. at 478–79.
The Court noted that such a case lies at the
intersection of federal prisoner litigation under section
1983 and the federal habeas corpus statute. 512 U.S. at
480. The Court had first considered the potential
overlap between these two statutes in Preiser, and held
then “that habeas corpus is the exclusive remedy for a
state prisoner who challenges the fact or duration of his
confinement and seeks immediate or speedier release,
even though such a claim may come within the literal
terms of § 1983.” Heck, 512 U.S. at 481 (citing Preiser,
411 U.S. at 488–90). Heck, however, was not seeking
immediate or speedier release, but monetary damages,
and so his claim was not covered by the holding of
Preiser. Section 1983 created “a species of tort
liability,” and so in determining whether there were
any bars to Heck’s suit, the Court turned first to the
common law of torts. Heck, 512 U.S. at 481, 483.
Heck’s section 1983 claim most closely resembled
the common-law tort of malicious prosecution, which
allows damages for confinement imposed pursuant to
legal process, including compensation for arrest and
imprisonment, discomfort or injury to health, and loss
of time and deprivation of society. Heck, 512 U.S. at
484. See also McDonough, 139 S. Ct. at 2156 (finding

App. 9
that the plaintiff’s section 1983 fabricated-evidence
claim most closely resembled the tort of malicious
prosecution). “One element that must be alleged and
proved in a malicious prosecution action is termination
of the prior criminal proceeding in favor of the
accused.” Heck, 512 U.S. at 484. This requirement
avoids creating two conflicting resolutions arising out
of the same transaction—an extant, enforceable
criminal conviction on the one hand, and a civil
judgment implying the invalidity of that conviction on
the other—and steers clear of parallel litigation over
the issue of guilt. The requirement also prevents a
convicted criminal from collaterally attacking the
conviction through a civil suit:
We think the hoary principle that civil tort
actions are not appropriate vehicles for
challenging the validity of outstanding criminal
judgments applies to § 1983 damages actions
that necessarily require the plaintiff to prove the
unlawfulness of his conviction or confinement,
just as it has always applied to actions for
malicious prosecution.
We hold that, in order to recover damages for
allegedly unconstitutional conviction or
imprisonment, or for other harm caused by
actions whose unlawfulness would render a
conviction or sentence invalid, a § 1983 plaintiff
must prove that the conviction or sentence has
been reversed on direct appeal, expunged by
executive order, declared invalid by a state
tribunal authorized to make such determination,
or called into question by a federal court’s

App. 10
issuance of a writ of habeas corpus, 28 U.S.C.
§ 2254. A claim for damages bearing that
relationship to a conviction or sentence that has
not been so invalidated is not cognizable under
§ 1983. Thus, when a state prisoner seeks
damages in a § 1983 suit, the district court must
consider whether a judgment in favor of the
plaintiff would necessarily imply the invalidity
of his conviction or sentence; if it would, the
complaint must be dismissed unless the plaintiff
can demonstrate that the conviction or sentence
has already been invalidated. But if the district
court determines that the plaintiff’s action, even
if successful, will not demonstrate the invalidity
of any outstanding criminal judgment against
the plaintiff, the action should be allowed to
proceed, in the absence of some other bar to the
suit.
Heck, 512 U.S. at 486–87 (footnotes omitted; emphasis
in original).
The Court made pellucid the broad consequences of
its plainly stated rule:
We do not engraft an exhaustion requirement
upon § 1983, but rather deny the existence of a
cause of action. Even a prisoner who has fully
exhausted available state remedies has no cause
of action under § 1983 unless and until the
conviction or sentence is reversed, expunged,
invalidated, or impugned by the grant of a writ
of habeas corpus.

App. 11
Heck, 512 U.S. at 489. Returning to its comparison to
common-law torts, the Court concluded that, just as a
claim for malicious prosecution does not accrue until
the criminal proceedings have terminated in the
plaintiff’s favor, “so also a § 1983 cause of action for
damages attributable to an unconstitutional conviction
or sentence does not accrue until the conviction or
sentence has been invalidated.” 512 U.S. at 489–90.
The Supreme Court has reaffirmed the Heck
framework several times. See Wallace, 549 U.S. at 393
(noting that the Heck rule for deferred accrual is called
into play only when there exists a conviction or
sentence that has not been invalidated; Heck “delays
what would otherwise be the accrual date of a tort
action until the setting aside of an extant conviction
which success in that tort action would impugn.”)
(emphasis in original); Nelson v. Campbell, 541 U.S.
637, 646 (2004) (citing Heck for the proposition that “a
§ 1983 suit for damages that would ‘necessarily imply’
the invalidity of the fact of an inmate’s conviction, or
‘necessarily imply’ the invalidity of the length of an
inmate’s sentence, is not cognizable under § 1983
unless and until the inmate obtains favorable
termination of a state, or federal habeas, challenge to
his conviction or sentence”); Edwards v. Balisok, 520
U.S. 641, 643, 645–48 (1997) (reaffirming the holding
of Heck and extending it to claims challenging prison
disciplinary proceedings that implicate the length of a
prisoner’s sentence). The Court most recently revisited
Heck in McDonough v. Smith, 139 S. Ct. 2149 (2019).
There, the Court held that a section 1983 claim for
fabricating evidence in a criminal prosecution accrued
upon acquittal, and not when the prosecutor’s knowing

App. 12
use of the fabricated evidence first caused some
deprivation of liberty for the plaintiff. 139 S. Ct. at
2153–54.
The plaintiff in McDonough alleged that the
prosecutor fabricated evidence in order to inculpate
him, including falsifying affidavits, coaching witnesses
to lie, and orchestrating a suspect DNA analysis to link
McDonough to the crime. The prosecutor brought
criminal charges against McDonough and presented
the fabricated evidence at a trial which ended in a
mistrial. The same prosecutor then retried McDonough,
again presenting the fabricated evidence. The second
trial resulted in an acquittal. McDonough asserted two
claims in his section 1983 action, one for malicious
prosecution and one for fabricated evidence. The
district court dismissed the malicious prosecution claim
as barred by prosecutorial immunity, and dismissed
the fabricated evidence claim as untimely, finding that
the claim accrued when the fabricated evidence was
used against McDonough. The court of appeals
affirmed, finding that McDonough had a complete
fabricated-evidence claim as soon as he could show that
the prosecutor’s knowing use of fabricated evidence
caused him some deprivation of liberty. Relying on
Heck and its progeny, the Supreme Court reversed,
concluding:
The statute of limitations for a fabricatedevidence claim like McDonough’s does not begin
to run until the criminal proceedings against the
defendant (i.e., the § 1983 plaintiff) have
terminated in his favor. This conclusion follows
both from the rule for the most natural common-

App. 13
law analogy (the tort of malicious prosecution)
and from the practical considerations that have
previously led this Court to defer accrual of
claims that would otherwise constitute an
untenable collateral attack on a criminal
judgment.
139 S. Ct. at 2154–55. In McDonough’s case, favorable
termination occurred at acquittal after the second
trial.3
The Court began the accrual analysis by identifying
the specific constitutional right that had been
infringed, a due process right not to be deprived of
liberty as a result of the fabrication of evidence by a
government officer. McDonough, 139 S. Ct. at 2155;
Manuel v. City of Joliet, Ill., 137 S. Ct. 911, 920 (2017).
3

Savory argued in supplemental briefing that this holding in
McDonough calls into question the continued validity of Johnson
v. Winstead, 900 F.3d 428 (7th Cir. 2018). McDonough addressed
claim accrual in the context of a trial resulting in mistrial, followed
by retrial resulting in acquittal. Johnson addressed claim accrual
in the context of a trial resulting in a conviction, followed by
reversal on appeal, then retrial resulting in a second conviction,
followed again by reversal on appeal. McDonough concluded that
the claim accrued only at the resolution of the second trial.
Johnson allowed for two accrual dates, one at favorable
termination of the first trial (in the form of the appellate reversal)
and the second at favorable termination of the second trial (again
in the form of reversal on appeal). Savory asks this court to resolve
the seeming inconsistency by finding that there is only one accrual
date in a single criminal case with a retrial. To the extent that it
is necessary to reconsider Johnson, we conclude that the more
prudent course is to allow the district court to consider in the first
instance, after full briefing from both the plaintiff and the
defendants, whether and how McDonough affects Johnson.

App. 14
Noting its frequent practice of deciding accrual issues
by reference to common-law principles governing
analogous torts, the Court concluded that the most
analogous common-law tort for McDonough’s
fabricated-evidence claim was malicious prosecution.4
See Heck, 512 U.S. at 484. Following that analogy, the
Court concluded that McDonough could not bring his
section 1983 fabricated evidence claim prior to the
favorable termination of his prosecution. McDonough,
139 S. Ct. at 2156. Citing Heck, Preiser, 411 U.S. at
490, and Younger v. Harris, 401 U.S. 37, 43 (1971), the
Court reiterated the rationales underlying the
favorable-termination rule:
[The] favorable-termination requirement is
rooted in pragmatic concerns with avoiding
parallel criminal and civil litigation over the
same subject matter and the related possibility
of conflicting civil and criminal judgments. …
The requirement likewise avoids allowing
collateral attacks on criminal judgments
through civil litigation. … These concerns track

4

Savory also argued in supplemental briefing that we should
overrule Manuel v. City of Joliet, Ill., 903 F.3d 667 (7th Cir. 2018),
to the extent that opinion rejected analogies to common-law torts
in section 1983 actions. Savory contends that McDonough
dictates–contrary to our 2018 Manuel opinion–that his claim for
unlawful detention after legal process accrued at the same time as
all of his other claims, specifically at the time of his pardon. We
again conclude that, to the extent that it is necessary to consider
this argument, the prudent course of action is for Savory to raise
these issues first in the district court, where, with the benefit of
full briefing, the court may consider in the first instance whether
and how McDonough affects our 2018 decision in Manuel.

App. 15
similar concerns for finality and consistency that
have motivated this Court to refrain from
multiplying avenues for collateral attack on
criminal judgments through civil tort vehicles
such as § 1983.
McDonough, 139 S. Ct. at 2156–57 (internal citations
and quotation marks omitted). Although Heck involved
a plaintiff who had been convicted rather than a
plaintiff who was acquitted, the Court found that:
the pragmatic considerations discussed in Heck
apply generally to civil suits within the domain
of habeas corpus, not only to those that
challenge convictions. See Preiser, 411 U.S. at
490–491, 93 S.Ct. 1827. The principles and
reasoning of Heck thus point toward a corollary
result here: There is not “ ‘a complete and
present cause of action,’ ” Wallace, 549 U.S. at
388, 127 S.Ct. 1091, to bring a fabricatedevidence challenge to criminal proceedings while
those criminal proceedings are ongoing. Only
once the criminal proceeding has ended in the
defendant’s favor, or a resulting conviction has
been invalidated within the meaning of Heck,
see 512 U.S. at 486–487, 114 S.Ct. 2364, will the
statute of limitations begin to run.
McDonough, 139 S. Ct. at 2158.
B.
Applying the analytical paradigm of Heck and
McDonough to Savory’s case, we first look at the nature
of his section 1983 claims and conclude that, like
Heck’s claims, they strongly resemble the common-law

App. 16
tort of malicious prosecution. Indeed, Savory’s claims
largely echo Heck’s complaint, asserting the
suppression of exculpatory evidence and the fabrication
of false evidence in order to effect a conviction. There is
no logical way to reconcile those claims with a valid
conviction. Therefore, Heck supplies the rule for accrual
of the claim. Because Savory’s claims “would
necessarily imply the invalidity of his conviction or
sentence,” his section 1983 claims could not accrue
until “the conviction or sentence ha[d] been reversed on
direct appeal, expunged by executive order, declared
invalid by a state tribunal authorized to make such
determination, or called into question by a federal
court’s issuance of a writ of habeas corpus.” Heck, 512
U.S. at 487. In Savory’s case, that occurred on January
12, 2015, when the governor of Illinois pardoned him.5
Gilbert v. Cook, 512 F.3d 899, 900 (7th Cir. 2008) (“the
plaintiff in an action under 42 U.S.C. § 1983 may not
pursue a claim for relief that implies the invalidity of
a criminal conviction, unless that conviction has been
set aside by appeal, collateral review, or pardon.”).
Until that moment, his conviction was intact and he
had no cause of action under section 1983. Heck, 512
U.S. at 489–90. His January 11, 2017, lawsuit was
therefore timely under Heck, and we must reverse the
district court’s judgment and remand for further
proceedings.

5

At oral argument for the en banc rehearing, counsel for the
defendants took the position that Savory’s pardon was not a
favorable termination because it was a general pardon rather than
a pardon based on innocence. As we will discuss below, Savory’s
pardon does operate as a favorable termination for the purposes of
the Heck analysis.

App. 17
McDonough supports the same result. Because
McDonough (who was not held in custody during his
trials) was acquitted rather than convicted, his section
1983 claim would not have infringed upon the
exclusivity of the habeas corpus remedy. The Court
nevertheless indicated that the other concerns
discussed in Heck still guided the outcome, and no
section 1983 claim could proceed until the criminal
proceeding ended in the defendant’s favor or the
resulting conviction was invalidated within the
meaning of Heck. So too with Savory. Although his
sentence had been served and habeas relief was no
longer available to him (and thus habeas exclusivity
was not at issue), the other considerations raised in
Heck controlled the outcome: he had no complete cause
of action until he received a favorable termination of
his conviction, which occurred when the governor
issued a pardon for the subject conviction.
C.
The defendants here contend that Savory’s federal
claims accrued when he was released from state
custody in 2011, even though his conviction remained
intact. The rule urged by the defendants would result
in claims being dead on arrival in virtually all section
1983 suits brought in relation to extant convictions.
“Congress has specifically required all federal courts to
give preclusive effect to state–court judgments
whenever the courts of the State from which the
judgments emerged would do so[.]” Allen v. McCurry,
449 U.S. 90, 96 (1980). See 28 U.S.C. § 1738 (judicial
proceedings of any court of any State “shall have the
same full faith and credit in every court within the

App. 18
United States and its Territories and Possessions as
they have by law or usage in the courts of such State”).
In Allen, the Supreme Court considered “whether the
rules of res judicata and collateral estoppel are
generally applicable to § 1983 actions.”6 449 U.S. at 96.
The Court concluded that the usual rules of preclusion
apply in section 1983 actions. 449 U.S. at 103–05.
Federal courts apply the preclusion law of the state
where the judgment was rendered, so long as the state
in question satisfies the applicable requirements of the
Due Process Clause. Kremer v. Chemical Constr. Corp.,
456 U.S. 461, 481–82 (1982). The Heck bar accounts for
the preclusive effect of state court criminal judgments
on civil litigation by lifting the bar only when the
plaintiff has achieved a favorable termination of the
criminal proceeding. See Morgan v. Schott, 914 F.3d
1115, 1120 (7th Cir. 2019) (the Heck rule is a version of
issue preclusion under which the outstanding criminal
judgment or disciplinary sanction, as long as it stands,
blocks any inconsistent civil judgment). Under the
defendants’ rule, a section 1983 claim would accrue on
release from custody even though the conviction
remained intact, and even though preclusion rules
would effectively prevent the plaintiff from bringing
any claim inconsistent with the original criminal

6

Under res judicata, also known as claim preclusion, “a final
judgment on the merits of an action precludes the parties or their
privies from relitigating issues that were or could have been raised
in that action.” Allen, 449 U.S. at 94. Under collateral estoppel,
also known as issue preclusion, “once a court has decided an issue
of fact or law necessary to its judgment, that decision may preclude
relitigation of the issue in a suit on a different cause of action
involving a party to the first case.” Id.

App. 19
conviction. Claimants like Savory, who obtained a
pardon several years after release from custody and
who may have the most meritorious claims, would be
too late. Nothing in Heck requires such a result.
D.
Although a straight-forward reading of Heck and its
progeny (including McDonough) determines the
outcome here, we must address the defendant’s
arguments that concurring and dissenting opinions of
certain Supreme Court justices cobbled together into a
seeming majority or the opinions of this court may
somehow override the prime directive of Heck. Several
of our post-Heck cases contain dicta or rely on
reasoning that is in conflict with Heck and McDonough,
and we must address and clarify those cases as well.
1.
The misunderstanding that led to the erroneous
result in the district court here originated in a
concurrence in Heck filed by Justice Souter and joined
by Justices Blackmun, Stevens and O’Connor. In that
concurrence, Justice Souter agreed that reference to
the common-law tort of malicious prosecution was a
useful starting point but he asserted that it could not
alone provide the answer to the conundrum found at
the intersection between section 1983 and the federal
habeas statute. Ultimately, Justice Souter suggested a
slightly different rule that he submitted would avoid
any collision between section 1983 and the habeas
statute:
A state prisoner may seek federal-court § 1983
damages for unconstitutional conviction or

App. 20
confinement, but only if he has previously
established the unlawfulness of his conviction or
confinement, as on appeal or on habeas. This has
the effect of requiring a state prisoner
challenging the lawfulness of his confinement to
follow habeas’s rules before seeking § 1983
damages for unlawful confinement in federal
court[.]
Heck, 512 U.S. at 498 (Souter, J., concurring).
For persons not in custody for the purposes of the
habeas statute, “people who were merely fined, for
example, or who have completed short terms of
imprisonment, probation, or parole, or who discover
(through no fault of their own) a constitutional
violation after full expiration of their sentences,” there
would be no requirement to show “the prior
invalidation of their convictions or sentences in order
to obtain § 1983 damages for unconstitutional
conviction or imprisonment” because:
the result would be to deny any federal forum for
claiming a deprivation of federal rights to those
who cannot first obtain a favorable state ruling.
The reason, of course, is that individuals not “in
custody” cannot invoke federal habeas
jurisdiction, the only statutory mechanism
besides § 1983 by which individuals may sue
state officials in federal court for violating
federal rights. That would be an untoward
result.
Heck, 512 U.S. at 500 (Souter, J., concurring).

App. 21
In contrast, of course, the Heck majority’s rule
requires that a plaintiff always obtain a favorable
resolution of the criminal conviction before bringing a
section 1983 claim that would necessarily imply the
invalidity of a conviction or sentence. The majority
opinion specifically rejected Justice Souter’s alternate
rule:
Justice SOUTER also adopts the common-law
principle that one cannot use the device of a civil
tort action to challenge the validity of an
outstanding criminal conviction, but thinks it
necessary to abandon that principle in those
cases (of which no real-life example comes to
mind) involving former state prisoners who,
because they are no longer in custody, cannot
bring postconviction challenges. We think the
principle barring collateral attacks—a
longstanding and deeply rooted feature of both
the common law and our own jurisprudence—is
not rendered inapplicable by the fortuity that a
convicted criminal is no longer incarcerated.
Heck, 512 U.S. at 490 n.10 (citations omitted). The
Court thus expressly rejected a rule tied to the end of
custody. In that same footnote, the Court also
dismissed the notion that section 1983 must be
interpreted in a manner that provides a remedy for all
conceivable invasions of federal rights. Id. See also
Allen, 449 U.S. at 103–04 (inability to obtain federal
habeas corpus relief upon a Fourth Amendment claim
does not render the doctrine of collateral estoppel
inapplicable to a section 1983 suit on that same claim).
In other words, there is not always a section 1983

App. 22
remedy for every constitutional wrong. See San Remo
Hotel, L.P. v. City and Cty. of San Francisco, 545 U.S.
323, 342 (2005) (issues actually decided in valid statecourt judgments may well deprive plaintiffs of the right
to have their federal claims re-litigated in federal
court). In Allen, for example, the Court made clear that
an inability to pursue relief through the habeas statute
would not relieve a section 1983 claimant of the
preclusive effect of a state court judgment where the
claimant had a full and fair opportunity to litigate the
issue in state court. Allen, 449 U.S. at 102–05.
But in Spencer v. Kemna, 523 U.S. 1, 21 (1998),
Justice Souter again filed a concurrence expressing the
view that he urged in his Heck concurrence, namely
“that a former prisoner, no longer ‘in custody,’ may
bring a § 1983 action establishing the
unconstitutionality of a conviction or confinement
without being bound to satisfy a favorable-termination
requirement that it would be impossible as a matter of
law for him to satisfy.”7 Justice Ginsburg, who had
been in the majority in Heck, this time agreed with
Justice Souter (who was also joined by Justices
O’Connor and Breyer), joining his concurrence and
filing her own: “Individuals without recourse to the
habeas statute because they are not ‘in custody’ (people
merely fined or whose sentences have been fully
7

In Savory’s case, of course, it was not impossible as a matter of
law to satisfy the favorable-termination rule even though he had
fully served his sentence and lacked access to habeas corpus.
Savory sought and received an executive pardon. Illinois also
provides a statutory remedy allowing petitioners to seek relief
from final judgments in certain circumstances. See 735 ILCS 5/21401.

App. 23
served, for example) fit within § 1983’s ‘broad reach.’”
Spencer, 523 U.S. at 21 (Ginsburg, J., concurring).
Justice Stevens dissented in Spencer, but he approved
Justice Souter’s basic premise: “Given the Court’s
holding that petitioner does not have a remedy under
the habeas statute, it is perfectly clear, as Justice
SOUTER explains, that he may bring an action under
42 U.S.C. § 1983.” Spencer, 523 U.S. at 25 n.8 (Stevens,
J., dissenting).
The defendants contended in the district court and
maintain on appeal that this dicta in concurring and
dissenting opinions, cobbled together, now formed a
new majority, essentially overruling footnote 10 in
Heck. But it is axiomatic that dicta from a collection of
concurrences and dissents may not overrule majority
opinions. See Agostini v. Felton, 521 U.S. 203, 217, 238
(1997) (the views of five concurring Justices that a case
should be reconsidered or overruled cannot be said to
have effected a change in the law when the propriety of
that case was not before the Court; instead, the case
controls until the Court reinterprets and overrules the
binding precedent); Cross v. United States, 892 F.3d
288, 303 (7th Cir. 2018) (“Unless and until a majority
of the Court overrules the majority opinions in [two
prior cases], they continue to bind us.”). The Supreme
Court may eventually adopt Justice Souter’s view, but
it has not yet done so and we are bound by Heck.
Rodriguez de Quijas v. Shearson/American Express,
Inc., 490 U.S. 477, 484 (1989) (“If a precedent of this
Court has direct application in a case, yet appears to
rest on reasons rejected in some other line of decisions,
the Court of Appeals should follow the case which
directly controls, leaving to this Court the prerogative

App. 24
of overruling its own decisions.”). See also Muhammad
v. Close, 540 U.S. 749, 752 n.2 (2004) (noting that
members of the Court had expressed the view that
“unavailability of habeas for other reasons may also
dispense with the Heck requirement” but indicating
that “[t]his case is no occasion to settle the issue.”).
The defendants also assert that footnote 10 of Heck
(which specifically rejected Justice Souter’s proposed
rule) was dicta, and therefore does not control the
outcome here. The plaintiff in Heck, they note, was
incarcerated and allowing a section 1983 suit during
incarceration would have permitted an end-run around
the habeas corpus statute. No such concern is present,
they argue, in the scenario addressed in footnote 10 of
Heck, specifically, persons who are no longer in custody
and cannot bring habeas challenges. But Heck was
concerned with more than the exclusivity of the habeas
corpus remedy for persons in custody, or the
intersection between habeas corpus and section 1983.
The favorable termination rule in Heck also rested on
concerns arising generally from collateral attacks on
extant criminal convictions through civil law suits.
Specifically, requiring a section 1983 plaintiff to prove
favorable termination of the criminal conviction avoids
parallel litigation over the issues of probable cause and
guilt, and precludes the possibility that a plaintiff
might succeed in a civil tort action after having been
convicted in the underlying criminal prosecution,
allowing the creation of conflicting judgments arising
out of the same transaction. Heck, 512 U.S. at 485–86.
These concerns were repeated recently in McDonough
as rationales supporting the application of Heck’s
favorable termination rule in a case that did not

App. 25
implicate concerns about habeas corpus. Because the
plaintiff had been acquitted rather than convicted,
there was little likelihood of a collision between habeas
corpus and section 1983. Yet the Court cited the
continued relevance of the favorable-termination rule
as being “rooted in pragmatic concerns with avoiding
parallel criminal and civil litigation over the same
subject matter and the related possibility of conflicting
civil and criminal judgments.” McDonough, 139 S. Ct.
at 2156–57. In further support of the favorable
termination rule, the Court also cited related concerns
for finality, consistency, and the avoidance of
unnecessary friction between the state and federal
court systems. 139 S. Ct. at 2157. Although footnote 10
of Heck addressed a factual scenario that was not
before the Court, to dismiss all of footnote 10 as dicta
is to divorce a significant part of the Court’s rationale
from its holding. The Court was simply making clear
how broadly it intended its holding to apply.
2.
The defendants also asserted below and argued on
appeal that this court has abrogated the rule in Heck,
citing five cases: DeWalt v. Carter, 224 F.3d 607 (7th
Cir. 2000); Simpson v. Nickel, 450 F.3d 303 (7th Cir.
2006); Burd v. Sessler, 702 F.3d 429 (7th Cir. 2012);
Whitfield v. Howard, 852 F.3d 656 (7th Cir. 2017); and
Sanchez v. City of Chicago, 880 F.3d 349 (7th Cir.
2018). According to the defendants, those cases
“together sensibly hold an individual who is no longer
in custody with no access to habeas corpus relief may
bring a § 1983 action challenging the constitutionality
of a still standing conviction without first satisfying the

App. 26
favorable termination rule of Heck.” Brief of
Defendants-Appellees (hereafter “Defendants’ Brief”),
at 7–8. As we just explained, however, this court may
not on its own initiative overturn decisions of the
Supreme Court. Although four of those five cases came
to correct resolutions, some of our language and
reasoning has created confusion regarding the
applicability of Heck in cases where habeas relief is not
available. Indeed, it was on these cases that the district
court relied in concluding that Savory had brought his
claims too late. The confusion began in DeWalt, an
opinion that had been circulated to the full court under
Circuit Rule 40(e). DeWalt, 224 F.3d at 618 n.6 (noting
that no judge in active service favored rehearing en
banc).
a.
In DeWalt, we considered whether a prisoner could
bring a section 1983 claim related to the loss of his
prison job when the underlying disciplinary sanction
had not been overturned or invalidated. Because
DeWalt did not challenge the fact or duration of his
confinement, a habeas petition was not the appropriate
vehicle for his claims. 224 F.3d at 617. DeWalt
challenged only a condition of his confinement—
namely, the loss of his prison job—making a section
1983 claim the appropriate course of action. Id. We
summarized our holding with the rule “that the
unavailability of federal habeas relief does not preclude
a prisoner from bringing a § 1983 action to challenge a
condition of his confinement that results from a prison
disciplinary action.” 224 F.3d at 618. We discussed the
minority views in Spencer and Heck in the context of

App. 27
answering a then-open question, namely, “whether
Heck’s favorable-termination requirement bars a
prisoner’s challenge under § 1983 to an administrative
sanction that does not affect the length of
confinement.” 224 F.3d at 616. We concluded that it did
not, a position later approved by the Supreme Court.
See Muhammad, 540 U.S. at 754 (noting that the
Seventh Circuit in DeWalt had taken the position that
Heck did not apply to prison disciplinary proceedings in
the absence of any implication going to the fact or
duration of the underlying sentence, and likewise
concluding that because Muhammad’s claim did not
seek a judgment at odds with his conviction or with the
state’s calculation of time to be served, Heck’s
favorable-termination requirement was inapplicable).
We reaffirm DeWalt’s basic holding today: a section
1983 complaint that challenges a disciplinary sanction
related only to the conditions of confinement and that
does not implicate the validity of the underlying
conviction or the duration of the sentence (e.g. loss of
good time credits) is not subject to Heck’s favorable
termination requirement. See also Muhammad, 540
U.S. at 754–55.
But part of the reasoning and language of DeWalt
went further than that and implied that, in all cases
where habeas relief is unavailable, then section 1983
must provide an avenue of relief. See DeWalt, 224 F.3d
at 617 (“Because federal habeas relief is not available
to Mr. DeWalt, the language of § 1983 and the Court’s
decision in Preiser dictate that he be able to proceed on

App. 28
his § 1983 action.”).8 This language suggesting that a
section 1983 remedy must be available when habeas
relief is unavailable is in conflict with footnote 10 of
Heck and with our holding today. Moreover, it was
unnecessary to the holding in DeWalt, and we now
disavow that language.
In DeWalt, we also overruled our prior decisions in
Anderson v. County of Montgomery, 111 F.3d 494 (7th
Cir. 1997), and Stone-Bey v. Barnes, 120 F.3d 718 (7th
Cir. 1997), to the extent that they applied the rule in
Heck to situations in which habeas relief was not
available:
We are aware that our decisions in Anderson v.
County of Montgomery, 111 F.3d 494 (7th
Cir.1997), and Stone–Bey v. Barnes, 120 F.3d
718 (7th Cir. 1997), precluded plaintiffs from
pursuing § 1983 actions when federal habeas
was not available or when the prisoner had not
first availed himself of that option. However, we
note that both of these cases preceded Spencer.
Indeed, our more recent cases have questioned
the viability of Anderson and Stone–Bey in light
of the Justices’ reluctance to apply the Heck rule
to situations in which habeas relief is not

8

Preiser held that a section 1983 action “is a proper remedy for a
state prisoner who is making a constitutional challenge to the
conditions of his prison life, but not to the fact or length of his
custody.” Preiser v. Rodriguez, 411 U.S. 475, 499 (1973).
Muhammad then later clarified that Heck does not apply to prison
disciplinary suits related only to conditions of confinement when
those suits do not raise any implication about the validity of the
conviction or the length of the sentence. 540 U.S. at 754–55.

App. 29
available. See Hoard v. Reddy, 175 F.3d 531, 533
(7th Cir.) (“[T]here is probably an exception to
the rule of Heck for cases in which no route other
than a damages action under section 1983 is
open to the person to challenge his conviction.”),
cert. denied, 528 U.S. 970, 120 S.Ct. 411, 145
L.Ed.2d 320 (1999); Carr v. O’Leary, 167 F.3d
1124, 1127 (7th Cir.1999) (“With Carr unable to
get the disciplinary sanction reversed, five
Justices would not consider the sanction a bar to
a section 1983 suit even though that suit calls
into question the validity of the sanction.”);
Sylvester v. Hanks, 140 F.3d 713, 714 (7th
Cir.1998) (questioning whether Heck would
preclude a § 1983 action to review placement in
segregation given that “few states afford
collateral review of prison disciplinary
hearings”). Our decision today necessitates that
we overrule Anderson and Stone–Bey to the
extent they take the contrary position.
DeWalt, 224 F.3d at 617–18.
It was appropriate to overrule Stone-Bey, but not for
the reason that we stated in DeWalt. Stone-Bey
involved a prisoner’s section 1983 challenge to
conditions of confinement alone. In determining
whether the Heck bar applied to his claim, we
considered whether it made “any difference in applying
Heck that the sentence imposed was one of disciplinary
segregation alone, as opposed to segregation coupled
with a loss of good-time credits,” and erroneously
concluded that it did not. 120 F.3d at 721. We then
applied Heck’s favorable termination rule and barred

App. 30
the prisoner’s claim even though it did not implicate
the validity of his conviction or sentence. That holding
conflicts with Muhammad. Stone-Bey was in error but
not because, as DeWalt stated, section 1983 must be
available when habeas is not. 224 F.3d at 617. Instead,
the holding in Stone-Bey was incorrect because Heck
does not apply to conditions-of-confinement claims that
do not implicate the validity of the underlying
conviction or the length of custody.
There was no need to overrule Anderson. Anderson
filed a section 1983 action that challenged the validity
of his extant conviction, a claim that normally would be
barred by Heck unless and until the plaintiff obtained
a favorable termination of that underlying conviction.
111 F.3d at 498–99. Anderson argued that, because he
had been released from prison and no longer had access
to habeas relief, he must have access to section 1983.
The Anderson panel rejected that contention for two
reasons: first, Anderson was on “conditional release,” a
form of parole that likely meant he did retain access to
habeas as a means of challenging his conviction.
Second, Heck had rejected in footnote 10 the very
argument which Anderson raised. We noted that, even
if footnote 10 was dicta, the favorable termination rule
of Heck also applied to persons no longer in custody
because it was an element of the analogous commonlaw tort claim on which the section 1983 claim was
based. That analysis was perfectly consistent with
Heck and with our holding today.
b.
Simpson similarly addressed a claim by a prisoner
related to disciplinary segregation and loss of

App. 31
recreation privileges. Because the claim related to
conditions of confinement rather than to the lawfulness
of a conviction or duration of confinement, we held that
Heck’s favorable termination rule did not apply,
reversing the district court’s decision to the contrary.
450 F.3d at 306–07 (citing Muhammad, 540 U.S. at
754–55). That holding of Simpson is correct. But we
also asserted that Muhammad and DeWalt established
that:
the doctrine of Heck and Edwards [v. Balisok] is
limited to prisoners who are “in custody” as a
result of the defendants’ challenged acts, and
who therefore are able to seek collateral review.
Take away the possibility of collateral review
and § 1983 becomes available. Simpson can’t
obtain collateral relief in either state or federal
court, so he isn’t (and never was) affected by
Heck or Edwards.
Simpson, 450 F.3d at 307 (emphasis in original). This
and similar passages in Simpson cannot survive our
decision today. Heck did not lose its vitality because
Simpson had been released from custody. Instead, Heck
did not apply because Simpson’s conditions-ofconfinement claim did not implicate the validity of his
conviction or the length of his sentence.
Muhammad in fact indicated that the Court had not
yet had an occasion to revisit the minority views
expressed in Spencer:
Members of the Court have expressed the view
that unavailability of habeas for other reasons
may also dispense with the Heck requirement.

App. 32
See Heck v. Humphrey, 512 U.S. 477, 491, 114
S.Ct. 2364, 129 L.Ed.2d 383 (1994) (SOUTER, J.,
concurring in judgment); Spencer v. Kemna, 523
U.S. 1, 21–22, 118 S.Ct. 978, 140 L.Ed.2d 43
(1998) (GINSBURG, J., concurring). This case is
no occasion to settle the issue.
Muhammad, 540 U.S. at 752 n.2. Simpson read that
footnote as conceding that Heck left this issue open.
But footnote 2 of Muhammad merely acknowledged the
possibility that the Court may someday revisit footnote
10 of Heck. Because it has not yet done so, we are
bound by the holding and reasoning of Heck.
c.
Burd involved a section 1983 suit for damages,
alleging that prison officials deprived the plaintiff of
access to the prison library, which in turn prevented
him from preparing a timely motion to withdraw his
guilty plea. Burd, 702 F.3d at 431. We concluded that
the damages that Burd was seeking to recover were
predicated on a successful challenge to his conviction,
and so Heck applied. 702 F.3d at 434–35. And “[t]he
rule in Heck forbids the maintenance of such a
damages action until the plaintiff can demonstrate his
injury by establishing the invalidity of the underlying
judgment.” 702 F.3d at 435 (emphasis in original). That
reasoning and holding was sound.
But in rejecting Burd’s alternate theory, we
endorsed the reasoning from DeWalt and Simpson that
we now disavow. We stated “that Heck applies where a
§ 1983 plaintiff could have sought collateral relief at an
earlier time but declined the opportunity and waited

App. 33
until collateral relief became unavailable before suing.”
702 F.3d at 436 (emphasis in original). We added:
Permitting a plaintiff who ignored his
opportunity to seek collateral relief while
incarcerated to skirt the Heck bar simply by
waiting to bring a § 1983 claim until habeas is
no longer available undermines Heck and is a far
cry from the concerns, as we understand them,
of the concurring Justices in Spencer for those
individuals who were precluded by a legal
impediment from bringing an action for
collateral relief.
702 F.3d at 436. Nothing in the record revealed any
impediment to Burd seeking collateral relief while he
was in custody. We therefore:
join[ed] the Sixth and Ninth Circuits in holding
that Heck bars a § 1983 action where: (1) [a]
favorable judgment would necessarily call into
question the validity of the underlying
conviction or sentence and (2) the plaintiff could
have pursued collateral relief but failed to do so
in a timely manner.
702 F.3d at 436. That statement should have ended
after item (1). The dicta of five Justices in Spencer did
not overrule the holding and reasoning of Heck, and a
plaintiff’s failure to pursue habeas relief when it was
available is irrelevant to whether the Heck bar applies.
We repudiate that part of Burd that gives any
significance to whether the plaintiff lost access to
habeas relief through no fault of his own.

App. 34
d.
The confusion that began in DeWalt, and that
continued in dicta in Simpson and Burd, eventually led
to a result in Whitfield v. Howard, 852 F.3d 656 (7th
Cir. 2017), which was, in retrospect, incorrect.
Although Whitfield was controlled by Edwards v.
Balisok, supra, rather than by Heck, we relied in part
on dicta from both Burd and Carr v. O’Leary, 167 F.3d
1124 (7th Cir. 1999), to conclude that a former prisoner
could pursue a section 1983 claim challenging prison
disciplinary proceedings that led to loss of good time
credits without first obtaining a favorable termination
of those proceedings.
Whitfield sought damages under section 1983 for
the retaliatory revocation of good time credits. 852 F.3d
at 659. He pursued collateral review while he was in
prison (albeit in a manner we characterized as not
“procedurally perfect”), including a federal habeas
claim, but was released from custody before his claims
were resolved. We found that Balisok rather than Heck
most directly governed Whitfield’s section 1983 claims.
Whitfield, 852 F.3d at 663. Balisok addressed the claim
of a state prisoner alleging due process violations for
procedures used in a disciplinary hearing that resulted
in a loss of “good-time” credits. Balisok, 520 U.S. at
643. The Balisok Court found that “[t]he principal
procedural defect complained of by respondent would,
if established, necessarily imply the invalidity of the
deprivation of his good-time credits.” 520 U.S. at 646.
But Balisok had not demonstrated that the result of
the disciplinary hearing had been set aside, and so the

App. 35
Court found his claim not cognizable under § 1983. 520
U.S. at 648.
Whitfield first nodded to the holding in Heck, noting
that in “section 1983 suits that did not directly seek
immediate or speedier release, but rather sought
monetary damages that would call into question the
validity of a conviction or term of confinement, … a
prisoner has no claim under section 1983 until he
receives a favorable decision on his underlying
conviction or sentence, such as through a reversal or
grant of habeas corpus relief.” Whitfield, 852 F.3d at
661. We also noted that Balisok extended the Heck bar
to section 1983 suits brought by prisoners challenging
the outcome of prison disciplinary proceedings in which
the plaintiffs sought damages rather than earlier
release. Id. We then attempted to distinguish Balisok:
Had [Balisok] prevailed, the result of the
disciplinary proceeding would have to have been
set aside. Whitfield, in contrast, is arguing that
the [disciplinary] hearings should never have
taken place at all, because they were acts of
retaliation for his exercise of rights protected by
the First Amendment. He has no quarrel with
the procedures used in the prison disciplinary
system. He could just as well be saying that a
prison official maliciously calculated an
improper release date, or “lost” the order
authorizing his release in retaliation for
protected activity. In short, the essence of
Whitfield’s complaint is the link between
retaliation and his delayed release; the fact that
disciplinary proceedings were the mechanism is

App. 36
not essential. Balisok also took care to be
precise, when it held that the petitioner’s claim
for prospective injunctive relief could go forward
under section 1983, since it did not necessarily
imply anything about the loss of good-time
credits.
Whitfield, 852 F.3d at 663. Unlike Balisok, we asserted,
Whitfield was not seeking to set aside the result of a
process but rather was claiming that the process
should not have occurred at all. And unlike Burd,
Whitfield had pursued collateral relief to the degree
possible, until he was released from custody and the
district court dismissed his habeas petition as moot.
We found those factors distinguishing and allowed
the claims to proceed. But Whitfield’s circumstances
were not truly distinguishable from those of Balisok or
Burd. A plaintiff’s good-faith but unsuccessful pursuit
of collateral relief does not relieve him of Heck’s
favorable termination requirement. Because Whitfield
had not yet obtained a favorable termination of the
disciplinary proceedings that led to a loss of good time
credit, he had no cognizable claim under section 1983.
We must therefore overrule our decision in Whitfield.
e.
That leaves Sanchez, the last case on which the
defendants relied. Sanchez brought section 1983 claims
asserting wrongful arrest and excessive force, claims
that would not necessarily imply the invalidity of his
conviction, and so we noted correctly that Heck did not
apply to those claims. 880 F.3d at 356. See also
Wallace, 549 U.S. at 389–91 (statute of limitations for

App. 37
a claim for false arrest begins to run upon initiation of
legal process). But Sanchez also suggested that he was
framed, a claim that would imply the invalidity of his
conviction. We relied on Whitfield to find that “Heck
does not bar a suit by a plaintiff who is no longer in
custody but who pursued a collateral attack through
appropriate channels while he was in custody, even if
such efforts were unavailing.” 880 F.3d at 356. Because
Sanchez sought post-conviction relief in state courts
before his release from custody, we concluded that Heck
did not apply. That reasoning does not survive our
decision today. But the final result in Sanchez is
nevertheless correct, because we went on to conclude
that Sanchez’s claim that he was framed was subject to
issue preclusion, and so there was no need to remand
for a new trial. 880 F.3d at 358. See also Green v.
Junious, 937 F.3d 1009, 1014 (7th Cir. 2019) (noting
that Heck did not categorically bar the suit in Sanchez
but the state criminal judgment had preclusive effect
under traditional collateral-estoppel analysis).
E.
Our dissenting colleague urges the court to adopt an
accrual rule tied to the end of custody. A claim accrues
when a plaintiff has “a complete and present cause of
action.” McDonough, 139 S. Ct. at 2155; Wallace, 549
U.S. at 388; Bay Area Laundry & Dry Cleaning Pension
Trust Fund v. Ferbar Corp. of Cal., 522 U.S. 192, 201
(1997). When a section 1983 claim resembles the
common-law tort of malicious prosecution, the Court
treats favorable termination as an element of the
claim. McDonough, 139 S. Ct. at 2156-57; Heck, 512
U.S. at 484. Without favorable termination, a plaintiff

App. 38
lacks “a complete and present cause of action.” Yet the
dissent’s rule would require a plaintiff to file suit
without this essential element of the claim. See Heck,
512 U.S. at 489 (“deny[ing] the existence of a cause of
action” until favorable termination of the conviction).
As a model for this rule, the dissent cites Poventud
v. New York, 715 F.3d 57 (2d Cir. 2013), a decision
vacated by the en banc Second Circuit.9 Poventud, in
turn, relied on Jenkins v. Haubert, 179 F.3d 19 (2d Cir.
1999), and Leather v. Eyck, 180 F.3d 420 (2d Cir. 1999).
Jenkins, like DeWalt, correctly decided that the Heck
bar does not apply in conditions-of-confinement cases
brought under section 1983. 179 F.3d at 27. Jenkins
also included dicta that suggested that a section 1983
remedy must be available when habeas relief is not
available. 179 F.3d at 27. That language is virtually
identical to the dicta in our own cases that we disavow
today. In Leather, the Second Circuit relied on the dicta
from Jenkins to conclude that a section 1983 plaintiff
who was assessed a fine but was never in custody could
bring his claim even though his conviction was extant.
180 F.3d at 424. For the reasons we have discussed
above, we find none of these cases persuasive.
In requiring favorable termination before allowing
a section 1983 claim to proceed, Heck sets a high
standard. Undoubtedly, as the dissent asserts, some
valid claims will never make it past the courthouse
door. Heck explains, though, why a high bar must be

9

The en banc Second Circuit resolved the case on other grounds
that have no bearing on the circumstances that we address here.
Poventud v. New York, 750 F.3d 121 (2d Cir. 2014).

App. 39
cleared before seeking damages in a civil action on
claims that imply the invalidity of a criminal
conviction. The Court sought to avoid parallel litigation
on the issue of guilt, preclude the possibility of
conflicting resolutions arising out of the same
transaction, prevent collateral attacks on criminal
convictions through the vehicle of civil suits, and
respect concerns for comity, finality and consistency.
Heck, 512 U.S. at 485–86. See also McDonough, 139 S.
Ct. at 2156–57. We are not in a position to alter the
Heck standard or set aside these concerns.
F.
We have said several times that Savory’s claims did
not accrue until he obtained a favorable termination of
his conviction and that this occurred when the governor
of Illinois pardoned him. We base this conclusion on
Heck itself, which lists “expunge[ment] by executive
order” as one of the ways in which a plaintiff may
demonstrate favorable termination. Heck, 512 U.S. at
487. At the en banc oral argument, the defendants
alerted the court for the first time that, if we were to
hold that Savory’s claim accrued on favorable
termination, they intended to argue on remand that
the governor’s January 12, 2015, pardon is not a
favorable termination. Under that theory, the
defendants contend, Savory brought his claims not too
late (as they claimed on appeal) but too early. The
district court rested its dismissal of the case solely on
the defendants’ argument that Savory’s claim was too
late because it accrued on December 6, 2011, when his
sentence was commuted, his custody ended, and he lost
access to the remedy of habeas corpus. At no time in

App. 40
the district court did the defendants argue in the
alternative that Savory’s federal claims were too early,
or that the date of accrual was anything other than
December 6, 2011. This entire appeal has been framed
as a contest between two possible dates of accrual: the
end of custody versus favorable termination. The
defendants never suggested until the en banc oral
argument that there was a third possible date for
accrual, one that has yet to occur. Savory’s claims have
already been more than forty years in the making and
we wish to avert further delays due to any
misunderstanding of this court’s holding today; and so
we now clarify that the governor’s January 12, 2015,
pardon was a favorable termination for the purposes of
the Heck analysis.
For many reasons, this holding should not be a
surprise to the defendants. On the first page of their
appellate brief, they stated that, “[O]n January 12,
2015, Savory was granted a general pardon from then
Illinois Governor Pat Quinn. That pardon set aside
Savory’s double murder conviction.” Defendants’ Brief,
at 1 (emphasis added). Although they later asserted
that this general pardon was not based on innocence
and failed to restore all of Savory’s rights of citizenship
(they interpret the pardon to withhold the right to sell,
receive, or possess a firearm), they attached no
significance to this assertion within the Heck
framework. Defendant’s Brief, at 5. Instead, they later
conceded that this court has already stated that a
section 1983 plaintiff’s claims related to a conviction
accrue at the time of a pardon. See Defendants’ Brief,
at 23 (“It is true that this Court, in Newsome, said it
was the plaintiff’s pardon that marked the accrual of

App. 41
the § 1983 claims.”). See also Newsome v. McCabe, 256
F.3d 747, 749, 752 (7th Cir. 2001) (“a claim based on
wrongful conviction and imprisonment did not accrue
until the pardon” and “the due process claim’s accrual
was postponed by Heck until the pardon.”), abrogated
on other grounds, Manuel v. City of Joliet, Ill., 137 S.
Ct. 911 (2017).
The defendants attempted to distinguish Newsome,
but that case is neither meaningfully distinguishable
nor unique in characterizing a pardon by a state’s
executive as adequate for Heck’s favorable termination
requirement. In the context of discussing favorable
terminations under Heck, we have often used “pardon”
or “executive pardon” as synonyms for “expunged by
executive order,” the phrase that the Court employed
in Heck. Manuel v. City of Joliet, Ill., 903 F.3d 667, 670
(7th Cir. 2018) (“§ 1983 cannot be used to obtain
damages for custody based on a criminal
conviction—not until the conviction has been set aside
by the judiciary or an executive pardon”); Moore v.
Burge, 771 F.3d 444, 446 (7th Cir. 2014) (“a claim that
implies the invalidity of a criminal conviction does not
accrue … until the conviction is set aside by the
judiciary or the defendant receives a pardon”); Gilbert
v. Cook, 512 F.3d 899, 900 (7th Cir. 2008) (“the plaintiff
in an action under 42 U.S.C. § 1983 may not pursue a
claim for relief that implies the invalidity of a criminal
conviction, unless that conviction has been set aside by
appeal, collateral review, or pardon”). That a pardon is
a favorable termination under Heck is well-settled.
Nevertheless, the defendants assert that Illinois
employs two kinds of pardons, a general pardon and a

App. 42
pardon based on innocence. They argue that only a
pardon based on innocence is a favorable termination
for the purposes of Heck. Because Savory has obtained
only a general pardon and not a pardon based on
innocence, the defendants indicated at oral argument
that they intended to argue on remand that he brought
his claims too soon. The contention that a pardon must
be based on innocence in order to serve as a favorable
termination finds no support in Heck, and we see no
reason to impose that additional limitation on Heck’s
holding. If the Court had wanted to specify that the
pardon must be based on innocence, it certainly could
have done so, but it did not. Instead, the Court offered
a list of possible resolutions that would satisfy the
favorable termination requirement, and none require
an affirmative finding of innocence. A conviction need
only be “reversed on direct appeal, expunged by
executive order, declared invalid by a state tribunal
authorized to make such determination, or called into
question by a federal court’s issuance of a writ of
habeas corpus.” Heck, 512 U.S. at 487. Any of these
outcomes can occur without a declaration of a
defendant’s innocence. McDonough added that
acquittal is a favorable termination under Heck that
starts the clock on claim accrual, another resolution
that does not necessarily imply innocence. McDonough,
139 S. Ct. at 2161.
The Governor’s pardon of Savory meets the
standard articulated in Heck:
Now, Know Ye, that I, PAT QUINN, Governor of
the State of Illinois, by virtue of the authority
vested in me by the Constitution of the State, do

App. 43
by these presents: PARDON JOHNNY [sic] L.
SAVORY (SID: 23061880) of the said crime of
which convicted, and JOHNNY [sic] L. SAVORY
(SID: 23061880) is hereby acquitted and
discharged of and from all further imprisonment
and restored to all the rights of citizenship
which may have been forfeited by the conviction.
R. 71-3. See Ill. Const. Art. 5, § 12 (“The Governor may
grant reprieves, commutations and pardons, after
conviction, for all offenses on such terms as he thinks
proper. The manner of applying therefore may be
regulated by law.”). This full pardon is followed by
language authorizing expungement of the records of
Savory’s conviction, which in Illinois must be
accomplished by application to a court that may, in its
discretion order the records sealed. 20 ILCS
2630/5.2(e). It would be passing strange if the Governor
authorized expungement of the record of conviction
without first meaning to expunge the conviction itself.
For the purposes of Heck, as the defendants themselves
conceded on the first page of their brief, Savory’s
conviction was set aside with this pardon. Under Heck,
his section 1983 claim accrued on that date.10
Finally, we note that the defendants’ failure to raise
this third possible accrual date in the district court and
on appeal appears to have been a deliberate choice. In
10

The defendants also suggested that the pardon did nothing more
than discharge Savory from any further imprisonment. This
assertion would render the pardon essentially meaningless in light
of the commutation of sentence granted to Savory in 2011 which
discharged him from all further custody. A pardon is broader in
scope and effect than a commutation of a sentence.

App. 44
the district court, the defendants also moved to dismiss
Savory’s state law claims, and Savory has not
challenged that dismissal on appeal. One of Savory’s
state law claims was for the Illinois tort of malicious
prosecution. R. 71, at 16. To proceed on that tort claim,
Illinois requires that the plaintiff prove that the
underlying criminal proceedings terminated in a
manner indicative of the innocence of the accused, a
higher standard than Heck’s favorable termination
accrual rule. See Swick v. Liautaud, 662 N.E.2d 1238,
1242 (Ill. 1996) (“a malicious prosecution action cannot
be predicated on underlying criminal proceedings
which were terminated in a manner not indicative of
the innocence of the accused”). The defendants argued
in the district court that Savory’s general pardon was
insufficient to meet this Illinois standard because it
was not indicative of his innocence. R. 71, at 16–18.
In support of this contention, the defendants relied
on a federal district court case that held that both a
state law malicious prosecution claim and a section
1983 claim resembling malicious prosecution accrued
when the plaintiff received an innocence pardon in
2003 rather than when he received a general pardon in
1978. Walden v. City of Chicago, 391 F.Supp.2d 660,
671–72 (N.D.Ill. 2005). But unlike the defendants in
Walden, the defendants here did not raise that same
argument in the district court in relation to the section
1983 claims. The defendants were therefore aware of
this argument for a third possible accrual date and
chose to raise it only in relation to the state law claim
in the district court. And the defendants conceded on
page one of their brief on appeal that the pardon set
aside Savory’s conviction. For all intents and purposes,

App. 45
the claim is therefore waived and is not open to
relitigation on remand. Milwaukee Ctr. for Indep., Inc.
v. Milwaukee Health Care, LLC, 929 F.3d 489, 493–94
(7th Cir. 2019) (failure to bring an argument in the
district court results in waiver on appeal; and a blatant
attempt to contradict what has already been admitted
in formal briefing will not be allowed). Because of this
waiver and because Savory’s pardon clearly meets the
Heck standard for favorable termination, we leave for
another day the consideration of whether some state
executive action labeled “pardon” does not meet Heck’s
standard.
III.
Heck controls the outcome where a section 1983
claim implies the invalidity of the conviction or the
sentence, regardless of the availability of habeas relief.
Claims that relate only to conditions of confinement
and that do not implicate the validity of the conviction
or sentence are not subject to the Heck bar. We disavow
the language in any case that suggests that release
from custody and the unavailability of habeas relief
means that section 1983 must be available as a
remedy. That includes the cases on which the district
court, in good faith, reasonably relied. McDonough
confirms that habeas exclusivity is just one part of the
rationale for Heck’s holding. Concerns about comity,
finality, conflicting judgments, and “the hoary principle
that civil tort actions are not appropriate vehicles for
challenging the validity of outstanding criminal
judgments” all underpin Heck’s favorable termination
rule. Heck, 512 U.S. at 486. The Supreme Court may
revisit the need for the favorable termination rule in

App. 46
cases where habeas relief is unavailable, but it has not
yet done so.
Savory’s claims, which necessarily imply the
invalidity of his conviction, accrued when he was
pardoned by the governor of Illinois. His section 1983
action, filed within two years of the pardon, was
therefore timely filed. We reverse the district court’s
judgment and remand for further proceedings.
REVERSED AND REMANDED.

App. 47
EASTERBROOK, Circuit Judge, dissenting. The court
is unanimous in concluding that only two potential
accrual rules make sense: either a §1983 claim does not
accrue until a criminal judgment has been set aside, or
release from prison marks the claim’s accrual even if
the judgment is unaltered. All the exceptions,
variations, and tergiversation found in earlier decisions
of our panels, and other circuits,1 must be cast aside.
One clear rule or the other is essential.
Unlike my colleagues, however, I think that we
should adopt the rule proposed by Justice Souter,
concurring in Heck v. Humphrey, 512 U.S. 477,
491–503 (1994) (joined by three other Justices), and
later espoused by Justice Ginsburg, see Spencer v.
Kemna, 523 U.S. 1, 21–22 (1998), under which the end
of custody marks the end of deferral. One court of
appeals has followed that path. See Poventud v. New
York, 715 F.3d 57, 61 (2d Cir. 2013), resolved en banc
on other grounds, 750 F.3d 121 (2014); Leather v. Eyck,
1

In one circuit the claim accrues on release if the ex-prisoner
“could not have practicably sought habeas relief while in custody.”
Griffin v. Baltimore Police Department, 804 F.3d 692, 696 (4th Cir.
2015) (cleaned up). In another the claim accrues on release if the
prisoner “was precluded as a matter of law from seeking habeas
redress”. Powers v. Hamilton, 501 F.3d 592, 601 (6th Cir. 2007)
(cleaned up). In a third the law is similar, but the court lists the
circumstances that it believes prevent a prisoner from obtaining
collateral relief. Guerrero v. Gates, 442 F.3d 697, 704–05 (9th Cir.
2006). And in a fourth circuit the claim accrues on release if the
prisoner has not been able to obtain collateral relief “through no
lack of diligence on his part”. Cohen v. Longshore, 621 F.3d 1311,
1317 (10th Cir. 2010). None of these approaches enables either a
plaintiff or a district judge to know when a claim has accrued and
the clock is ticking.

App. 48
180 F.3d 420, 424 (2d Cir. 1999); Jenkins v. Haubert,
179 F.3d 19 (2d Cir. 1999). We should too.
The opinion in Heck states that a §1983 claim for
unconstitutional conviction or imprisonment does not
accrue until “the conviction or sentence has been
reversed on direct appeal, expunged by executive order,
declared invalid by a state tribunal authorized to make
such determination, or called into question by a federal
court’s issuance of a writ of habeas corpus”. 512 U.S. at
487. That is the source of my colleagues’ bright-line
rule. It also has the support of Heck’s footnote 10, 512
U.S. at 490 n.10:
JUSTICE SOUTER also adopts the common-law
principle that one cannot use the device of a civil
tort action to challenge the validity of an
outstanding criminal conviction, but thinks it
necessary to abandon that principle in those
cases (of which no real-life example comes to
mind) involving former state prisoners who,
because they are no longer in custody, cannot
bring postconviction challenges. Post, at 500. We
think the principle barring collateral attacks—a
longstanding and deeply rooted feature of both
the common law and our own jurisprudence—is
not rendered inapplicable by the fortuity that a
convicted criminal is no longer incarcerated.
JUSTICE SOUTER opines that disallowing a
damages suit for a former state prisoner framed
by Ku Klux Klan-dominated state officials is
“hard indeed to reconcile …with the purpose of
§1983.” Post, at 502. But if, as JUSTICE SOUTER
appears to suggest, the goal of our interpretive

App. 49
enterprise under §1983 were to provide a
remedy for all conceivable invasions of federal
rights that freedmen may have suffered at the
hands of officials of the former States of the
Confederacy, the entire landscape of our §1983
jurisprudence would look very different. We
would not, for example, have adopted the rule
that judicial officers have absolute immunity
from liability for damages under §1983, Pierson
v. Ray, 386 U.S. 547 (1967), a rule that would
prevent recovery by a former slave who had been
tried and convicted before a corrupt state judge
in league with the Ku Klux Klan.
I do not think, however, that either aspect of the
opinion in Heck is conclusive.
Statements in Heck (other than note 10) about the
need to wait for a prisoner’s vindication discuss the
claim at hand: by a prisoner then in custody. Opinions
are not statutes and should not be read as if they were.
See, e.g., Zenith Radio Corp. v. United States, 437 U.S.
443, 462 (1978). Footnote 10 is the only part of the
Court’s opinion in Heck to address the appropriate
treatment of plaintiffs whose custody has ended, and a
clearer example of dicta is hard to imagine. The
footnote concerns a subject that had not been briefed by
the parties, that did not matter to the disposition of
Heck’s claim, and that the majority thought would not
matter to anyone, ever. That belief has been
embarrassed by the fact that many former prisoners
contend that their convictions were wrongful but are no

App. 50
longer in a position to seek collateral review.2 Heck did
not present for decision any question about the
appropriate treatment of this situation. And the
Justices themselves have told us that Heck did not
decide the question.
Members of the Court have expressed the view
that unavailability of habeas for other reasons
may also dispense with the Heck requirement.
See Heck v. Humphrey, 512 U.S. 477, 491 (1994)
(SOUTER, J., concurring in judgment); Spencer v.
Kemna, 523 U.S. 1, 21–22 (1998) (GINSBURG, J.,
concurring). This case is no occasion to settle the
issue.
Muhammad v. Close, 540 U.S. 749, 752 n.2 (2004). To
say that “[t]his case is no occasion to settle the issue” is
to say that the issue is open—in other words, that it
was not settled by Heck, which occasioned an exchange
of competing views but did not yield a holding. No later
case has done so either. Certainly McDonough v.
Smith, 139 S. Ct. 2149 (2019), did not do so.
McDonough repeats Heck’s conclusion that an acquittal
causes the claim to accrue, without discussing the
question whether release from prison at the end of the
sentence also does so. Justice Ginsburg, who joined the

2

This circuit alone has seen dozens of such cases. The cases cited
on the first page (including footnote 1) of this opinion represent the
tip of the iceberg in other circuits. And four more circuits, which
read Heck as my colleagues do, have addressed similar claims. See
Figueroa v. Rivera, 147 F.3d 77 (1st Cir. 1998); Gilles v. Davis, 427
F.3d 197 (3d Cir. 2005); Randell v. Johnson, 227 F.3d 300 (5th Cir.
2000); Entzi v. Redmann, 485 F.3d 998 (8th Cir. 2007).

App. 51
opinion in McDonough, did not suggest that she has
abandoned her view that a sentence’s end permits suit.
Although footnote 10 is dictum, we are bound by the
Court’s rationales for holding that a person still in
prison may not use §1983 to obtain damages on account
of the conviction and confinement. There are three:
first, the rule from Preiser v. Rodriguez, 411 U.S. 475
(1973), that §1983 cannot be used to obtain relief from
ongoing custody (the right remedy is a collateral attack
under 28 U.S.C. §§ 2241, 2254, or 2255); second, the
rule that people in state custody must exhaust state
remedies before obtaining federal review (see 28 U.S.C.
§2254(b)(1)); third, the rule that a criminal conviction
is a judgment that the loser normally may not
contradict in another court. The first two rationales
drop out after a person has been released from prison,
and the third is not a federal bar when the judgment
was entered by a state court. The effect of a state
judgment depends on state law. 28 U.S.C. §1738;
Marrese v. American Academy of Orthopaedic
Surgeons, 470 U.S. 373 (1985).
Neither §1983 nor any other federal statute
specifies when a claim accrues. That time has been
established by the Supreme Court as a matter of
federal common law. See Wallace v. Kato, 549 U.S. 384,
388 (2007). Wallace adjusted the accrual rules to
address claims arising under the Fourth Amendment,
a category of suits that had been the subject of dictum
in some of Heck’s other footnotes (512 U.S. at 486–87
nn. 6, 7) but did not represent a holding any more than
note 10 did. Then Manuel v. Joliet, 137 S. Ct. 911
(2017), adjusted Wallace to address situations in which

App. 52
custody without probable cause continued after an
initial judicial appearance. Both Wallace and Manuel
set out to produce accrual doctrines that respect the
need to allow remedies for serious wrongdoing, while
avoiding premature litigation. We can and should do
the same.
The Justices expressed concern in Manuel and its
successor McDonough about a rule starting the time so
early that legitimate claims would be lost. We should
be equally concerned about a rule starting the time so
late that claims never accrue. The majority’s approach
does just that.
Some sentences are too short to allow collateral
relief. We routinely see cases in which it has taken a
decade to pursue a direct appeal, collateral review in
state court, and collateral review in federal court. If
confinement ends before collateral review begins, the
custody requirement prevents all further review. If the
sentence is fully served while state collateral review is
ongoing, federal collateral review cannot begin. (Only
state prisoners “in custody” can seek review under
§2254(a).) So a rule under which a §1983 claim does not
accrue as long as the criminal judgment stands means
that thousands of defendants sentenced to less than
five or ten years in prison can never present a §1983
claim, no matter how egregious the constitutional
violations that led to wrongful conviction and custody.
Released prisoners can obtain relief under the
majority’s approach if their convictions are set aside by
pardon (Savory’s situation) or certificate of innocence.
Yet in most states pardons are rare, and pardons for
federal crimes are rarer still. Getting a certificate of

App. 53
innocence is wickedly hard in both state and federal
systems, because the applicant must show factual
innocence, and even an acquittal does not establish
that. See Pulungan v. United States, 722 F.3d 983 (7th
Cir. 2013). Proof of innocence—the need to prove a
negative—is difficult to come by. Again Savory may be
an exception; he eventually found conclusive DNA
evidence. Few wrongly convicted persons are so
fortunate.
Delayed availability of evidence is another problem.
Proof that a given police officer systematically lied or
fabricated evidence in a way that produced convictions
may not become available until any particular sentence
is over. It may take decades for official misconduct to
come to light. Under the majority’s rule this delay
means that a §1983 claim will never accrue unless the
former prisoner can obtain a pardon or certificate of
innocence. On my view, by contrast, the claim accrues
no later than release from prison.
Even after a prisoner’s release, suit may be blocked
by the preclusive effect of the state judgment, but that
is a matter of state law under §1738 and should be
dealt with in the same way as any other invocation of
issue or claim preclusion. Likewise, if a state claim
does not accrue as a matter of state law—if, for
example, exoneration is an element of a maliciousprosecution claim—a federal court should honor that
rule.
Ex-prisoners who, despite exercising reasonable
diligence, cannot obtain essential evidence within two
years of their release, may invoke the doctrine of
equitable tolling to postpone the time to litigate. It is

App. 54
neither necessary nor appropriate to have a federal
rule that defers accrual indefinitely. Savory’s claim
may well be timely on my approach, but he did not
make an equitable-tolling argument in the district
court, see 338 F. Supp. 3d 860, 866 (N.D. Ill. 2017), and
does not make one here.
Congress could create by legislation a rule
foreclosing damages until a plaintiff, although no
longer in prison, has been vindicated by a pardon or
certificate of innocence, but such a rule cannot be found
in any enacted statute. As long as accrual is governed
by federal common law we ought to implement a rule
that protects the states’ principal interests (avoiding
the use of §1983 to attack ongoing custody and
ensuring that prisoners present their contentions to the
state judiciary) without needlessly blocking potentially
legitimate federal claims. Savory’s victory today comes
at a terrible price—the extinguishment of many
substantively valid constitutional claims.

App. 55

APPENDIX B
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
Everett McKinley
Dirksen United States
Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
January 7, 2020
Before:

DIANE P. WOOD, Chief Circuit Judge
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
AMY C. BARRETT, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge

App. 56
JOHNNIE LEE SAVORY,
Plaintiff - Appellant
No. 17-3543

v.
WILLIAM CANNON, SR., as special
representative for Charles Cannon,
et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 1:17-cv-00204
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman
The District Court’s judgment is REVERSED, with
costs, and the case is REMANDED, for further
proceedings, in accordance with the decision of this
court entered on this date.
form name: c7_FinalJudgment(form ID: 132)

App. 57

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
No. 17-3543
[Filed July 1, 2019]
__________________________
JOHNNIE LEE SAVORY, )
Plaintiff-Appellant,
)
)
v.
)
)
WILLIAM CANNON, SR., )
as special representative for )
Charles Cannon, et al.,
)
Defendants-Appellees. )
__________________________ )
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-00204
Gary Feinerman, Judge.
By the Court:
ORDER
The parties are ordered to file briefs explaining the
bearing of the Supreme Court’s opinion in McDonough
v. Smith, 588 U.S. —, 2019 WL 2527474 (June 20,

App. 58
2019), on the above captioned appeal. The briefs may
not exceed fifteen pages and shall be filed within two
weeks of the issuance of this Order.

App. 59

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 17-3543
[Filed January 7, 2019]
__________________________
JOHNNIE LEE SAVORY,
)
Plaintiff-Appellant,
)
)
v.
)
)
WILLIAM CANNON, SR.,
)
as special representative for )
Charles Cannon, et al.,
)
Defendants-Appellees. )
__________________________ )
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-00204 – Gary Feinerman, Judge.
_________________
ARGUED OCTOBER 25, 2018 —
DECIDED JANUARY 7, 2019
_________________
Before ROVNER, HAMILTON, and BARRETT, Circuit
Judges.
ROVNER, Circuit Judge. Johnnie Lee Savory spent
thirty years in prison for a 1977 double murder that he

App. 60
insists he did not commit. Even after his release from
prison, he continued to assert his innocence. Thirtyeight years after his conviction, the governor of Illinois
pardoned Savory. Nearly two years after the pardon,
Savory filed a civil rights suit against the City of Peoria
(“City”) and a number of Peoria police officers alleging
that they framed him. The district court dismissed the
suit as untimely. We reverse and remand for further
proceedings.
I.
In January 1977, Peoria police officers arrested
fourteen-year-old Savory for the rape and murder of
nineteen-year-old Connie Cooper and the murder of her
fourteen-year-old brother, James Robinson. According
to Savory’s complaint, which we must credit when
assessing a motion to dismiss under Federal Rule of
Civil Procedure 12(b)(6), these officers subjected Savory
to an abusive thirty-one hour interrogation over a twoday period. Tobey v. Chibucos, 890 F.3d 634, 645 (7th
Cir. 2018) (in reviewing a district court’s decision on a
motion to dismiss pursuant to Rule 12(b)(6), we accept
as true all well-pleaded facts and draw all reasonable
inferences in favor of the non-moving party). The
officers fabricated evidence, wrongfully coerced a false
confession from the teen, suppressed and destroyed
evidence that would have exonerated him, fabricated
incriminating statements from alleged witnesses, and
ignored ample evidence pointing to other suspects. No
legitimate evidence implicated Savory. His arrest,
prosecution and conviction were based entirely on the
officers’ fabricated evidence and illegally extracted
false confession.

App. 61
Savory was tried as an adult in 1977 and convicted
of first degree murder. After that conviction was
overturned on appeal, he was convicted again in 1981.
He was sentenced to a term of forty to eighty years in
prison. After Savory exhausted direct appeals and postconviction remedies in state court, he unsuccessfully
sought federal habeas corpus relief. He repeatedly
petitioned for clemency and also sought DNA testing.
After thirty years in prison, he was paroled in
December 2006. Five years later, in December 2011,
the governor of Illinois commuted the remainder of
Savory’s sentence. That action terminated his parole
(and therefore his custody) but left his conviction
intact. On January 12, 2015, the governor issued a
pardon that “acquitted and discharged” Savory’s
conviction. On January 11, 2017, less than two years
after the pardon, Savory filed suit against the City and
the police officers.
That suit asserted six claims under 42 U.S.C.
§ 1983, five against the individual defendants and one
against the City. The five counts against the individual
defendants alleged that they: (1) coerced a false
confession from Savory in violation of the Fifth and
Fourteenth Amendments; (2) coerced a false confession
from Savory in violation of his due process rights under
the Fourteenth Amendment; (3) maliciously prosecuted
Savory, depriving him of liberty without probable cause
in violation of the Fourth and Fourteenth
Amendments; (4) violated his right to be free of
involuntary confinement and servitude under the
Thirteenth and Fourteenth Amendments; and (5) failed
to intervene as their fellow officers violated Savory’s
civil rights. In the sixth count, Savory alleged that the

App. 62
City’s unlawful policies, practices and customs led to
his wrongful conviction and imprisonment in violation
of section 1983. Savory also brought state law claims
against the defendants but later conceded that those
claims were untimely under the state’s one-year
statute of limitations. Those claims are not part of this
appeal.
The defendants moved to dismiss Savory’s section
1983 claims on several grounds but the district court
addressed only one: the statute of limitations. The
court recognized that, under Heck v. Humphrey, 512
U.S. 477 (1994), Savory could not bring his section 1983
claims unless and until he obtained a favorable
termination of a challenge to his conviction. The parties
agreed that the relevant statute of limitations required
Savory to bring his claims within two years of accrual
but the parties disagreed on when the Heck bar lifted.
Savory asserted that his claims did not accrue until he
received a pardon from the Illinois governor on
January 12, 2015, which would make his January 11,
2017 suit timely. The defendants asserted that the
Heck bar lifted when Savory’s parole was terminated
on December 6, 2011, making his claims untimely. The
district court concluded that the defendants had the
better view of Heck and dismissed the claims with
prejudice. Savory appeals.
II.
We review de novo a Rule 12(b)(6) dismissal on
statute of limitations grounds. Tobey, 890 F.3d at 645;
Amin Ijbara Equity Corp. v. Village of Oak Lawn, 860
F.3d 489, 492 (7th Cir. 2017). Our analysis begins and
ends with Heck, the controlling case. Heck addressed

App. 63
whether and when a state prisoner may challenge the
constitutionality of his conviction in a suit for damages
under 42 U.S.C. § 1983. Heck, 512 U.S. at 478. While
Heck was serving a fifteen-year sentence for
manslaughter, he brought a section 1983 action against
two prosecutors and a state police inspector asserting
that they engaged in an unlawful investigation that led
to his arrest, that they knowingly destroyed
exculpatory evidence, and that they caused an unlawful
voice identification procedure to be used at his trial.
512 U.S. at 478–79.
The Court noted that such a case lies at the
intersection of federal prisoner litigation under section
1983 and the federal habeas corpus statute. 512 U.S. at
480. In analyzing the claim, the Court first found that
Heck’s section 1983 claim most closely resembled the
common law tort of malicious prosecution, which allows
damages for confinement imposed pursuant to legal
process, including compensation for arrest and
imprisonment, discomfort or injury to health, and loss
of time and deprivation of society. 512 U.S. at 484. An
element that must be pleaded and proved in a
malicious prosecution case is termination of the prior
criminal proceeding in favor of the accused. This
requirement avoids creating two conflicting resolutions
arising out of the same transaction, steering clear of
parallel litigation over the issue of guilt. The
requirement also prevents a convicted criminal from
collaterally attacking the conviction through a civil
suit:
We think the hoary principle that civil tort
actions are not appropriate vehicles for

App. 64
challenging the validity of outstanding criminal
judgments applies to § 1983 damages actions
that necessarily require the plaintiff to prove the
unlawfulness of his conviction or confinement,
just as it has always applied to actions for
malicious prosecution.
We hold that, in order to recover damages for
allegedly unconstitutional conviction or
imprisonment, or for other harm caused by
actions whose unlawfulness would render a
conviction or sentence invalid, a § 1983 plaintiff
must prove that the conviction or sentence has
been reversed on direct appeal, expunged by
executive order, declared invalid by a state
tribunal authorized to make such determination,
or called into question by a federal court’s
issuance of a writ of habeas corpus, 28 U.S.C.
§ 2254. A claim for damages bearing that
relationship to a conviction or sentence that has
not been so invalidated is not cognizable under
§ 1983. Thus, when a state prisoner seeks
damages in a § 1983 suit, the district court must
consider whether a judgment in favor of the
plaintiff would necessarily imply the invalidity
of his conviction or sentence; if it would, the
complaint must be dismissed unless the plaintiff
can demonstrate that the conviction or sentence
has already been invalidated. But if the district
court determines that the plaintiff’s action, even
if successful, will not demonstrate the invalidity
of any outstanding criminal judgment against
the plaintiff, the action should be allowed to

App. 65
proceed, in the absence of some other bar to the
suit.
Heck, 512 U.S. at 486–87 (footnotes omitted; emphasis
in original).
The Court made pellucid the broad consequences of
its plainly stated rule:
We do not engraft an exhaustion requirement
upon § 1983, but rather deny the existence of a
cause of action. Even a prisoner who has fully
exhausted available state remedies has no cause
of action under § 1983 unless and until the
conviction or sentence is reversed, expunged,
invalidated, or impugned by the grant of a writ
of habeas corpus.
Heck, 512 U.S. at 489. Returning to its comparison to
common law torts, the Court concluded that, just as a
claim for malicious prosecution does not accrue until
the criminal proceedings have terminated in the
plaintiff’s favor, “so also a § 1983 cause of action for
damages attributable to an unconstitutional conviction
or sentence does not accrue until the conviction or
sentence has been invalidated.” 512 U.S. at 489–90. See
also Wallace v. Kato, 549 U.S. 384, 393 (2007) (noting
that the Heck rule for deferred accrual is called into
play only when there exists a conviction or sentence
that has not been invalidated; Heck “delays what would
otherwise be the accrual date of a tort action until the
setting aside of an extant conviction which success in
that tort action would impugn.”).
Applying this rule to Savory’s case, we first look at
the nature of his section 1983 claims and conclude that,

App. 66
like Heck’s claims, they strongly resemble the common
law tort of malicious prosecution. Indeed, Savory’s
claims largely echo Heck’s complaint, asserting the
suppression of exculpatory evidence and the fabrication
of false evidence in order to effect a wrongful
conviction. The statute of limitations for such claims in
Illinois is two years. Heck supplies the rule for accrual
of the claim. Because Savory’s claims “would
necessarily imply the invalidity of his conviction or
sentence,” his section 1983 claims could not accrue
until “the conviction or sentence ha[d] been reversed on
direct appeal, expunged by executive order, declared
invalid by a state tribunal authorized to make such
determination, or called into question by a federal
court’s issuance of a writ of habeas corpus.” Heck, 512
U.S. at 487. In Savory’s case, that occurred on January
12, 2015, when the governor of Illinois pardoned him.
Until that moment, his conviction was intact and he
had no cause of action under section 1983. Heck, 512
U.S. at 489–90. His January 11, 2017 lawsuit was
therefore timely under Heck, and we must reverse the
district court’s judgment and remand for further
proceedings.
We said that our analysis began and ended with
Heck but for the sake of clarity, we must address the
defendant’s arguments that concurring and dissenting
opinions of certain Supreme Court justices cobbled
together into a seeming majority or the opinions of this
court may somehow override the prime directive of
Heck. The misunderstanding that led to the erroneous
result here originated in a concurrence in Heck filed by
Justice Souter and joined by Justices Blackmun,
Stevens and O’Connor. In that concurrence, Justice

App. 67
Souter agreed that reference to the common law tort of
malicious prosecution was a useful starting point but
he asserted that it could not alone provide the answer
to the conundrum found at the intersection between
section 1983 and the federal habeas statute.
Ultimately, Justice Souter suggested a slightly
different rule that he submitted would avoid any
collision between section 1983 and the habeas statute:
A state prisoner may seek federal-court § 1983
damages for unconstitutional conviction or
confinement, but only if he has previously
established the unlawfulness of his conviction or
confinement, as on appeal or on habeas. This has
the effect of requiring a state prisoner
challenging the lawfulness of his confinement to
follow habeas’s rules before seeking § 1983
damages for unlawful confinement in federal
court[.]
Heck, 512 U.S. at 498 (Souter, J., concurring).
For persons not in custody for the purposes of the
habeas statute, “people who were merely fined, for
example, or who have completed short terms of
imprisonment, probation, or parole, or who discover
(through no fault of their own) a constitutional
violation after full expiration of their sentences,” there
would be no requirement to show “the prior
invalidation of their convictions or sentences in order
to obtain § 1983 damages for unconstitutional
conviction or imprisonment” because:
the result would be to deny any federal forum for
claiming a deprivation of federal rights to those

App. 68
who cannot first obtain a favorable state ruling.
The reason, of course, is that individuals not “in
custody” cannot invoke federal habeas
jurisdiction, the only statutory mechanism
besides § 1983 by which individuals may sue
state officials in federal court for violating
federal rights. That would be an untoward
result.
Heck, 512 U.S. at 500 (Souter, J., concurring).
In contrast, of course, the Heck majority’s rule
requires that a plaintiff always obtain a favorable
resolution of the criminal conviction before bringing a
section 1983 claim that would necessarily imply the
invalidity of a conviction or sentence. The majority
opinion specifically rejected Justice Souter’s alternate
rule:
Justice SOUTER also adopts the common-law
principle that one cannot use the device of a civil
tort action to challenge the validity of an
outstanding criminal conviction, but thinks it
necessary to abandon that principle in those
cases (of which no real-life example comes to
mind) involving former state prisoners who,
because they are no longer in custody, cannot
bring postconviction challenges. We think the
principle barring collateral attacks—a longstanding and deeply rooted feature of both the
common law and our own jurisprudence—is not
rendered inapplicable by the fortuity that a
convicted criminal is no longer incarcerated.
Heck, 512 U.S. at 490 n.10 (citations omitted).

App. 69
The Supreme Court has reaffirmed the Heck
framework several times. See Wallace, 549 U.S. at 393;
Nelson v. Campbell, 541 U.S. 637, 646 (2004) (citing
Heck for the proposition that “a § 1983 suit for damages
that would ‘necessarily imply’ the invalidity of the fact
of an inmate’s conviction, or ‘necessarily imply’ the
invalidity of the length of an inmate’s sentence, is not
cognizable under § 1983 unless and until the inmate
obtains favorable termination of a state, or federal
habeas, challenge to his conviction or sentence”);
Edwards v. Balisok, 520 U.S. 641, 643 (1997) (same).
But in Spencer v. Kemna, 523 U.S. 1, 21 (1998), Justice
Souter again filed a concurrence expressing the view
that he urged in his Heck concurrence, namely “that a
former prisoner, no longer ‘in custody,’ may bring a
§ 1983 action establishing the unconstitutionality of a
conviction or confinement without being bound to
satisfy a favorable-termination requirement that it
would be impossible as a matter of law for him to
satisfy.” Justice Ginsburg, who had been in the
majority in Heck, this time agreed with Justice Souter
(who was also joined by Justices O’Connor and Breyer),
joining his concurrence and filing her own: “Individuals
without recourse to the habeas statute because they
are not ‘in custody’ (people merely fined or whose
sentences have been fully served, for example) fit
within § 1983's ‘broad reach.’” Spencer, 523 U.S. at 21
(Ginsburg, J., concurring). Justice Stevens dissented in
Spencer, but he approved Justice Souter’s basic
premise: “Given the Court’s holding that petitioner
does not have a remedy under the habeas statute, it is
perfectly clear, as Justice SOUTER explains, that he
may bring an action under 42 U.S.C. § 1983.” Spencer,
523 U.S. at 25 n.8 (Stevens, J., dissenting).

App. 70
The defendants contended in the district court and
maintain on appeal that this dicta in concurring and
dissenting opinions, cobbled together, now formed a
new majority, essentially overruling footnote 10 in
Heck. But it is axiomatic that dicta from a collection of
concurrences and dissents may not overrule majority
opinions. Cross v. United States, 892 F.3d 288, 303 (7th
Cir. 2018) (“Unless and until a majority of the Court
overrules the majority opinions in [two prior cases],
they continue to bind us.”). The Supreme Court may
eventually adopt Justice Souter’s view but it has not
yet done so and we are bound by Heck. Rodriguez de
Quijas v. Shearson/American Express, Inc., 490 U.S.
477, 484 (1989) (“If a precedent of this Court has direct
application in a case, yet appears to rest on reasons
rejected in some other line of decisions, the Court of
Appeals should follow the case which directly controls,
leaving to this Court the prerogative of overruling its
own decisions.”). See also Muhammad v. Close, 540
U.S. 749, 752 n.2 (2004) (characterizing as unsettled
the position taken by Justice Souter in Heck and by
Justice Ginsburg in Spencer that “unavailability of
habeas for other reasons may also dispense with the
Heck requirement”).
The defendants also asserted below and continue to
argue on appeal that this court has abrogated the rule
in Heck, citing four cases: DeWalt v. Carter, 224 F.3d
607 (7th Cir. 2000); Simpson v. Nickel, 450 F.3d 303
(7th Cir. 2006); Burd v. Sessler, 702 F.3d 429 (7th Cir.
2012); and Whitfield v. Howard, 852 F.3d 656 (7th Cir.
2017). According to the defendants, those cases
“together sensibly hold an individual who is no longer
in custody with no access to habeas corpus relief may

App. 71
bring a § 1983 action challenging the constitutionality
of a still standing conviction without first satisfying the
favorable termination rule of Heck.” Brief of
Defendants-Appellees, at 7–8. As we just explained,
this court may not on its own initiative overturn
decisions of the Supreme Court, and in fact none of the
cited cases overturned the core holding of Heck or
purported to do so.
In DeWalt, we considered whether a prisoner could
bring a section 1983 claim related to the loss of his
prison job when the underlying disciplinary sanction
had not been overturned or invalidated. Because
DeWalt did not challenge the fact or duration of his
confinement, a habeas petition was not the appropriate
vehicle for his claims. 224 F.3d at 617. DeWalt
challenged only a condition of his confinement—
namely, his prison job—making a section 1983 claim
the appropriate course of action. Id. We summarized
our holding with the rule “that the unavailability of
federal habeas relief does not preclude a prisoner from
bringing a § 1983 action to challenge a condition of his
confinement that results from a prison disciplinary
action.” 224 F.3d at 618. We discussed Spencer and
Heck only in the context of answering an open question,
namely, “whether Heck’s favorable-termination
requirement bars a prisoner’s challenge under § 1983
to an administrative sanction that does not affect the
length of confinement.” 224 F.3d at 616. We concluded
that it did not, a position later approved by the
Supreme Court. See Muhammad, 540 U.S. at 754
(noting that the Seventh Circuit in DeWalt had taken
the position that Heck did not apply to prison
disciplinary proceedings in the absence of any

App. 72
implication going to the fact or duration of the
underlying sentence, and concluding that because
Muhammad had similarly raised no claim on which
habeas relief could have been granted on any
recognized theory, Heck’s favorable-termination
requirement was inapplicable).
Simpson similarly addressed a claim by a prisoner
related to the conditions of his confinement rather than
the lawfulness of his conviction or duration of
confinement. Simpson alleged that when he complained
about prison staff, they retaliated against him by
issuing bogus conduct reports and arranging for him to
be disciplined. 450 F.3d at 305. As a result, he was
subjected to 300 days in segregation and lost twentyfive days of recreation privileges. We reversed the
district court’s dismissal for failure to state a claim.
The district court had concluded that, under Heck,
Simpson could not bring a suit that was inconsistent
with the findings of the prison disciplinary board
unless a state court set those findings aside. We
reaffirmed the core holding of Heck, “that a prisoner
whose grievance implies the invalidity of ongoing
custody must seek review by collateral attack.” 450
F.3d at 306–07. But we also noted that Heck was not
applicable to Simpson’s claims because “neither
disciplinary segregation nor a reduction in the amount
of recreation is a form of ‘custody’ under federal law.”
450 F.3d at 307. Simpson was not bringing a claim that
implied the invalidity of his underlying conviction or
sentence and was therefore not subject to Heck’s
favorable-termination requirement. We noted that
Muhammad and DeWalt established that:

App. 73
the doctrine of Heck and Edwards is limited to
prisoners who are “in custody” as a result of the
defendants’ challenged acts, and who therefore
are able to seek collateral review. Take away the
possibility of collateral review and § 1983
becomes available. Simpson can’t obtain
collateral relief in either state or federal court,
so he isn’t (and never was) affected by Heck or
Edwards.
Simpson, 450 F.3d at 307. Read out of context, we
understand how this passage and other passages in
Simpson confused the issue in the district court. Some
of this language could be read to imply that the
inability to obtain habeas relief because the sentence
has been served could relieve a section 1983 litigant of
Heck’s favorable-termination requirement. But Heck
itself rejected that position and Muhammad made clear
that the Court had not yet had an occasion to settle the
minority views expressed in Heck and Spencer.
Neither Burd nor Whitfield support a contrary
result. Burd brought a section 1983 suit for damages,
alleging that prison officials deprived him of access to
the prison library, which in turn prevented him from
preparing a timely motion to withdraw his guilty plea.
Burd, 702 F.3d at 431. Burd asserted that Heck did not
apply to his claim because he would not necessarily
have been successful in seeking to withdraw his plea.
We concluded that the damages that Burd was seeking
to recover were predicated on a successful challenge to
his conviction, and so Heck applied. 702 F.3d at
434–35. And “[t]he rule in Heck forbids the
maintenance of such a damages action until the

App. 74
plaintiff can demonstrate his injury by establishing the
invalidity of the underlying judgment.” We also
rejected Burd’s alternate theory, that he should be
allowed to proceed with his section 1983 claim even
though it implied that his conviction was invalid
because his sentence was fully discharged and habeas
relief was unavailable to him. 702 F.3d at 435–36. But
Burd had failed to pursue habeas relief when it was
available to him during his time in custody. We
therefore held “that Heck applies where a § 1983
plaintiff could have sought collateral relief at an earlier
time but declined the opportunity and waited until
collateral relief became unavailable before suing.” 702
F.3d at 436.
Whitfield addressed a unique factual scenario that
bears no resemblance to Savory’s case. Whitfield
reaffirmed Heck, noting that in “section 1983 suits that
did not directly seek immediate or speedier release, but
rather sought monetary damages that would call into
question the validity of a conviction or term of
confinement, … a prisoner has no claim under section
1983 until he receives a favorable decision on his
underlying conviction or sentence, such as through a
reversal or grant of habeas corpus relief.” Whitfield,
852 F.3d at 661. Whitfield sought damages under
section 1983 for the retaliatory revocation of good time
credits. 852 F.3d at 659. He sought collateral review
while he was in prison (albeit in a manner we
characterized as not “procedurally perfect”), including
a federal habeas claim, but was released from custody
before his claims were resolved.

App. 75
We found that Balisok rather than Heck most
directly governed Whitfield’s section 1983 claims.
Whitfield, 852 F.3d at 663. Balisok addressed the claim
of a state prisoner alleging due process violations for
procedures used in a disciplinary hearing that resulted
in a loss of “good-time” credits. Balisok, 520 U.S. at
643. The Balisok Court found that “[t]he principal
procedural defect complained of by respondent would,
if established, necessarily imply the invalidity of the
deprivation of his good-time credits.” 520 U.S. at 646.
But Balisok had not demonstrated that the result of
the disciplinary hearing had been set aside, and so the
Court found his claim not cognizable under § 1983. 520
U.S. at 648.
We distinguished Balisok in Whitfield:
Had [Balisok] prevailed, the result of the
disciplinary proceeding would have to have been
set aside. Whitfield, in contrast, is arguing that
the hearings should never have taken place at
all, because they were acts of retaliation for his
exercise of rights protected by the First
Amendment. He has no quarrel with the
procedures used in the prison disciplinary
system. He could just as well be saying that a
prison official maliciously calculated an
improper release date, or “lost” the order
authorizing his release in retaliation for
protected activity. In short, the essence of
Whitfield’s complaint is the link between
retaliation and his delayed release; the fact that
disciplinary proceedings were the mechanism is
not essential. Balisok also took care to be

App. 76
precise, when it held that the petitioner’s claim
for prospective injunctive relief could go forward
under section 1983, since it did not necessarily
imply anything about the loss of good-time
credits.
Whitfield, 852 F.3d at 663. Unlike Balisok, Whitfield
was not seeking to set aside the result of a process but
rather was claiming that the process should not have
occurred at all. And unlike Burd, Whitfield had
pursued collateral relief to the degree possible, until he
was released from custody and the district court
dismissed his habeas petition as moot. In Whitfield, we
thus addressed a fact scenario at the outer edges of
Balisok. It has little bearing on Savory’s claims, which
lie at the core of Heck.
III.
We end where we began: Heck controls the result
here. Savory’s claims, which necessarily imply the
invalidity of his conviction, did not accrue until he was
pardoned by the governor of Illinois. His section 1983
action was therefore timely filed, and we reverse the
district court’s judgment and remand for further
proceedings.
REVERSED AND REMANDED.

App. 77

APPENDIX E
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
Everett McKinley
Dirksen United States
Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
January 7, 2019
Before:

ILANA DIAMOND ROVNER, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
AMY C. BARRETT, Circuit Judge
JOHNNIE LEE SAVORY,
Plaintiff - Appellant

No. 17-3543

v.
WILLIAM CANNON, SR., as special
representative for Charles Cannon,
et al.,
Defendants - Appellees

Originating Case Information:

App. 78
District Court No: 1:17-cv-00204
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman
The judgment of the District Court is REVERSED,
with costs, and the case is REMANDED, in accordance
with the decision of this court entered on this date.
form name: c7_FinalJudgment(form ID: 132)

App. 79

APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
17 C 204
Judge Gary Feinerman
[Filed December 1, 2017]
______________________________________
JOHNNIE LEE SAVORY,
)
)
Plaintiff,
)
)
vs.
)
)
CHARLES CANNON, MARCELLA
)
BROWN TEPLITZ, BETH BELL,
)
as Special Representative of Russell
)
Buck, Peter Gerontes, and John
)
Timmes, JOHN FIERS, CHARLES
)
EDWARD BOWERS, JOHN
)
STENSON, GEORGE PINKNEY, E.
)
HAYNES, WALTER JATKOWSKI,
)
GLEN PERKINS, ALLEN ANDREWS, )
HAROLD MARTENESS, MARY ANN
)
DUNLAVEY, CARL TIARKS,
)
DENNIS JENKINS, and
)
CITY OF PEORIA, ILLINOIS,
)
)
Defendants.
)
______________________________________ )

App. 80
MEMORANDUM OPINION AND ORDER
Johnnie Lee Savory was arrested in January 1977
for the rape and murder of Connie Cooper and the
murder of James Robinson, and was convicted later
that year. Doc. 1 at ¶¶ 1, 77. After the Appellate Court
of Illinois reversed the convictions due to a Miranda
violation, see People v. Savory, 403 N.E.2d 118 (Ill. App.
1980), Savory was re-tried in 1981, convicted again,
and sentenced to 40-80 years’ imprisonment, see People
v. Savory, 435 N.E.2d 226 (Ill. App. 1982). After those
convictions were affirmed, Savory pursued
unsuccessfully several avenues of relief in state and
federal court, including two federal habeas actions. See,
e.g., Savory v. Lane, 832 F.2d 1011 (7th Cir. 1987)
(federal habeas); Savory v. Peters, 1995 WL 9242 (N.D.
Ill. Jan. 9, 1995) (federal habeas); People v. Savory, 756
N.E.2d 804 (Ill. 2001) (suit under Illinois law to compel
scientific testifying of evidence); Savory v. Lyons, 469
F.3d 667 (7th Cir. 2006) (§ 1983 suit seeking access to
physical evidence to conduct DNA testing). Savory was
released from prison on parole in 2006. Doc. 1 at ¶ 78.
Savory’s parole terminated on December 6, 2011. Doc.
71 at 10. (Although the parole termination date is not
in the complaint, the state trial court in a 2013 action
by Savory to obtain DNA testing stated that “[h]is
parole was terminated on December 6, 2011,” People v.
Savory, 77 CF 565, Order at 2 (Cir. Ct. of Peoria Cnty.,
Ill. Aug. 6, 2013) (reproduced at Doc. 71-2 at 2), and
Savory’s attorneys confirmed at the October 25, 2017
hearing in this case that the date is correct.) On
January 12, 2015, Savory received a pardon from the
Governor of Illinois. Doc. 1 at ¶ 87; Doc. 71-3.

App. 81
Just shy of two years later, on January 11, 2017,
Savory filed this 42 U.S.C. § 1983 suit against the City
of Peoria, several Peoria police officers, and a
polygraph operator. The complaint alleges that
Defendants coerced Savory’s confession, fabricated
evidence, and destroyed and withheld exculpatory
evidence, all in violation of the United States
Constitution and Illinois law. Doc. 1. Defendants move
on several grounds under Federal Rule of Civil
Procedure 12(b)(6) to dismiss the suit. Doc. 71.
The only ground that need be addressed is the
statute of limitations. True enough, “[w]hen a
defendant charges noncompliance with the statute of
limitations, dismissal under Rule 12(b)(6) is irregular,
for the statute of limitations is an affirmative defense.”
Chi. Bldg. Design, P.C. v. Mongolian House, Inc., 770
F.3d 610, 613 (7th Cir. 2014) (brackets and internal
quotation marks omitted). Because “complaints need
not anticipate and attempt to plead around defenses,”
United States v. N. Trust Co., 372 F.3d 886, 888 (7th
Cir. 2004), dismissal on limitations grounds is
appropriate only when it is clear from the facts that
may be considered on a Rule 12(b)(6) motion that the
claim is time-barred, see Mongolian House, 770 F.3d at
614. This case presents that circumstance. See Collins
v. Vill. of Palatine, __ F.3d __, 2017 WL 5490819, at *2
(7th Cir. Nov. 16, 2017); Amin Ijbara Equity Corp. v.
Vill. of Oak Lawn, 860 F.3d 489, 492 (7th Cir. 2017);
Rosado v. Gonzalez, 832 F.3d 714, 716 (7th Cir. 2016).
Savory concedes that his state law claims do not
comply with 745 ILCS 10/8-101(a), which establishes a
one-year limitations period for suits brought against

App. 82
local governments and their employees, Doc. 79 at 33,
so those claims are dismissed. The limitations period
for Savory’s § 1983 claims is two years. See Dominguez
v. Hendley, 545 F.3d 585, 588 (7th Cir. 2008). Savory
filed this suit on January 11, 2017, so whether the
federal claims are untimely turns on whether they
accrued before January 12, 2015. Resolution of the
accrual question turns on an application of Heck v.
Humphrey, 512 U.S. 477 (1994).
The Heck doctrine provides that “a § 1983 suit for
damages that would necessarily imply the invalidity of
the fact of an inmate’s conviction … is not cognizable
under § 1983 unless and until the inmate obtains
favorable termination of a … challenge to his
conviction.” Nelson v. Campbell, 541 U.S. 637, 646
(2004) (internal quotation marks omitted). The parties
agree that Savory could not have brought his § 1983
claims until the Heck bar lifted because those claims,
if successful, would necessarily imply the invalidity of
his convictions. The parties further agree that Savory’s
§ 1983 claims accrued when the Heck bar on those
claims lifted. Doc. 71 at 17; Doc. 79 at 12-13. The
parties dispute, however, when the Heck bar lifted.
As Savory sees it, the Heck bar was in place until
January 12, 2015, when he received a favorable (in his
view) termination of his conviction in the form of a
gubernatorial pardon. Doc. 79 at 14. If that is correct,
then the § 1983 claims accrued on January 12, 2015
and thus are timely. As Defendants see it, the Heck bar
lifted on December 6, 2011, when Savory’s parole was
terminated. Doc. 71 at 17. If that is correct, then § 1983
claims accrued on December 6, 2011, the limitations

App. 83
period on those claims expired on December 6, 2013,
and the claims are untimely. Defendants are correct,
and understanding why requires some explanation.
Heck as a general rule prevents convicted criminals
from challenging their intact convictions via § 1983
instead of via the habeas statute, which is the exclusive
remedy for persons “who challenge the fact or duration
of their confinement.” DeWalt v. Carter, 224 F.3d 607,
614 (7th Cir. 2000). An exception to the rule arises
from the fact that federal habeas relief is available only
to individuals who are “in custody.” 28 U.S.C.
§ 2254(a); see Maleng v. Cook, 490 U.S. 488, 490-91
(1989) (“We have interpreted the [habeas statute] as
requiring that the habeas petitioner be ‘in custody’
under the conviction or sentence under attack at the
time his petition is filed.”); Stanbridge v. Scott, 791
F.3d 715, 718 (7th Cir. 2015) (“Federal courts have
jurisdiction over a habeas petition only if the petitioner
is in custody pursuant to the judgment of a State
court.”) (internal quotation marks omitted). In DeWalt,
the Seventh Circuit held that because habeas is not an
option after a person is no longer in custody, a postcustody § 1983 claim challenging the validity of a
conviction does not interfere with the operation of the
habeas statute, and thus Heck does not bar the claim.
See 224 F.3d at 617 (“[W]here habeas is not applicable,
the requirements of the habeas statute do not
supersede the explicit right to proceed under § 1983.”).
As the Seventh Circuit later explained in Simpson v.
Nickel, 450 F.3d 303 (7th Cir. 2006): “[A] prisoner
whose grievance implies the invalidity of ongoing
custody must seek review by collateral attack … . Only
after the custody is over may the prisoner use § 1983 to

App. 84
seek damages against persons who may have been
responsible; indeed, the § 1983 claim does not accrue
until the custody ends.” Id. at 306-07.
The question then becomes when Savory’s custody
ended. The answer under Seventh Circuit precedent is
when his parole terminated. See Burd v. Sessler, 702
F.3d 429, 435 (7th Cir. 2012) (“Once [the plaintiff’s]
supervised release [the modern Illinois equivalent of
parole] expires, any subsequent habeas corpus petition
may be foreclosed due to failure to meet the ‘in custody’
requirement of habeas corpus.”). So, because Savory’s
§ 1983 claims accrued when the Heck bar lifted,
because the Heck bar lifted when Savory could no
longer seek federal habeas relief, and because Savory
could no longer seek habeas relief as of the termination
of his parole on December 6, 2011, Savory’s § 1983
claims accrued on that date, and the statute of
limitations expired two years later, on December 6,
2013. It follows that those claims, which Savory did not
file until January 11, 2017, are barred by the statute of
limitations. See Whitfield v. Howard, 852 F.3d 656, 658
(7th Cir. 2017) (noting that the “statute of limitations
does not begin to run until [the] Heck bar lift[s]”).
Savory responds that DeWalt and Simpson do not
hold that the Heck bar lifts once custody ends; rather,
according to Savory, those decisions hold only that
Heck does not apply to claims that never could have
been brought in a habeas petition. In both DeWalt and
Simpson, the plaintiffs challenged prison disciplinary
actions that affected the conditions of their
confinement, such as being fired from a prison job. See
Simpson, 450 F.3d at 305; DeWalt, 224 F.3d at 617. As

App. 85
Savory sees it, because habeas is available only to those
who challenge the fact or duration of their confinement,
see DeWalt, 224 F.3d at 617 (“[H]abeas is the proper
vehicle for presenting a claim if but only if the prisoner
is seeking to ‘get out’ of custody in some meaningful
sense.”) (internal quotation marks omitted), habeas
never was an avenue for challenging the disciplinary
actions that injured the DeWalt and Simpson plaintiffs.
Savory thus reads DeWalt and Simpson as holding
that, although Heck does not bar a § 1983 suit when
habeas was never an option, when a plaintiff
challenges a conviction, Heck continues to bar a § 1983
suit unless and until the conviction is favorably
terminated, regardless of whether the plaintiff remains
in or has left custody. Doc. 79 at 17.
Savory’s reading of DeWalt and Simpson may be
faithful to their facts, but it cannot be reconciled with
their reasoning. The legal principle underlying both
decisions is much broader than Savory acknowledges:
When habeas is not available, § 1983 is; and, more
specifically, when habeas was available but no longer
is, § 1983 becomes available. Both decisions recognize
the implications of the principle they articulated.
Simpson explicitly contemplated a case like Savory’s:
“[A]fter the custody is over[,] the prisoner [may] use
§ 1983 to seek damages against persons who may have
been responsible.” 450 F.3d at 307. And DeWalt noted
that it was overruling Anderson v. County of
Montgomery, 111 F.3d 494, 499 (7th Cir. 1997), which
had held that Heck barred the suit of an individual who
“was not incarcerated when he brought his § 1983
claims and thus had no habeas corpus relief available
to him.” See DeWalt, 224 F.3d at 617-18. In overruling

App. 86
Anderson, DeWalt necessarily held that an individual
not in custody, and thus no longer able to seek federal
habeas relief, was not barred by Heck from bringing a
§ 1983 claim. See Pickens v. Moore, 806 F. Supp. 2d
1070, 1075 n.4 (N.D. Ill. 2011) (“It is a distinction
without a difference that habeas relief is unavailable to
Pickens not because he is challenging the conditions of
his confinement … but rather because he is no longer
incarcerated. In that regard DeWalt explicitly
overruled Anderson … , which had held that the Heck
bar applied without regard to the fact that the claimant
was no longer incarcerated and thus had no habeas
relief available to him.”).
Savory’s interpretation of DeWalt and Simpson is
also inconsistent with the Seventh Circuit’s recent
Whitfield decision, which held that a plaintiff who had
recently been released from custody could bring a claim
through § 1983 that he could have brought (and did
bring) through habeas while he was in custody. 852
F.3d at 664-65. The plaintiff in Whitfield challenged
the allegedly retaliatory revocation of his good-time
credits, which delayed his release from prison by
sixteen months. Id. at 658. Because the loss of the
credits affected the duration of his incarceration,
habeas was the exclusive vehicle for his challenge while
he remained in custody. Id. at 661. Indeed, the plaintiff
had filed a federal habeas petition, but it was
dismissed as moot after he completed his sentence. Id.
at 659. By permitting the plaintiff to bring a postcustody § 1983 claim, the Seventh Circuit made clear
that the Heck bar lifts when a prisoner is released from
custody, even for claims that challenge the fact or

App. 87
duration of confinement and therefore that could have
been brought in a habeas petition. Id. at 663, 665.
Seventh Circuit precedent recognizes, as an
exception to DeWalt and Simpson, one circumstance in
which the Heck bar stays in place even after a plaintiff
is no longer in custody: where the plaintiff “has a
constitutional claim, yet (perhaps for strategic reasons)
sits it out while in custody and waits to bring her claim
until habeas corpus is jurisdictionally barred because
the ‘custody’ requirement is no longer met.” Id. at 664
(citing Burd, 702 F.3d at 436)). This exception adheres
to the rationale of DeWalt and Simpson: Because
Heck’s purpose is to protect the habeas remedy’s
exclusivity, Heck continues to apply to those
individuals who attempt to evade the habeas statute’s
strictures by waiting out their sentences and only then
filing § 1983 claims. The exception does not apply to
Savory because, as noted above, he sought federal
habeas relief not only once, but twice, during his
custody.
Finally, Savory argues that the Heck opinion itself
suggests that the favorable termination of a challenge
to the plaintiff’s conviction is a necessary prerequisite
to bringing a § 1983 claim, even if the plaintiff is no
longer in custody. See Heck, 512 U.S. at 490 n.10.
Savory acknowledges that a majority of the Justices
have expressed the view in concurrences that the Heck
bar does not apply to plaintiffs who are no longer in
custody, see Spencer v. Kemna, 523 U.S. 1, 18-21 (1998)
(Souter, J., concurring); id. at 21-22 (Ginsburg, J.,
concurring); Heck, 512 U.S. at 491-503 (Souter, J.,
concurring), but argues that this principle has never

App. 88
been expressed in a majority opinion. The Seventh
Circuit considered at great length and then rejected
this very argument in DeWalt, definitively concluding
that the view expressed in the above-cited concurrences
represents governing law. See 224 F.3d at 615-17 &
n.5. That ends the matter as far as a district court is
concerned. See Reiser v. Residential Funding Corp., 380
F.3d 1027, 1029 (7th Cir. 2004) (“In a hierarchical
system, decisions of a superior court are authoritative
on inferior courts. Just as the court of appeals must
follow decisions of the Supreme Court whether or not
we agree with them, so district judges must follow the
decisions of this court whether or not they agree.”)
(citations omitted); A Woman’s Choice-E. Side Women’s
Clinic v. Newman, 305 F.3d 684, 687 (7th Cir. 2002)
(“[O]nly an express overruling relieves an inferior court
of the duty to follow decisions on the books.”).
***
It is possible that Defendants, or at least one or
some of them, inflicted a grave injustice on Savory. But
absent circumstances not present here—such as
equitable tolling, see Shropshear v. Corp. Counsel of
City of Chicago, 275 F.3d 593, 595-97 (7th Cir. 2001)
(applying Illinois equitable tolling law to a § 1983
claim), which Savory does not invoke and therefore has
forfeited, see Firestone Fin. Corp. v. Meyer, 796 F.3d
822, 825 (7th Cir. 2015) (“[A] party generally forfeits an
argument or issue not raised in response to a motion to
dismiss.”); G&S Holdings LLC v. Cont’l Cas. Co., 697
F.3d 534, 538 (7th Cir. 2012) (“We have repeatedly held
that a party waives an argument by failing to make it
before the district court.”); Domka v. Portage Cnty., 523

App. 89
F.3d 776, 783 n.11 (7th Cir. 2008) (“[W]here a party
raises a specific argument for the first time on appeal,
it is waived even though the ‘general issue’ was before
the district court.”)—statutes of limitation are
unforgiving, even under the most compelling
circumstances. See Maples v. Thomas, 565 U.S. 266,
281 (2012) (“[W]hen a petitioner’s postconviction
counsel misses a filing deadline, the petitioner is bound
by the oversight.”); Johnson v. McBride, 318 F.3d 587,
590 (7th Cir. 2004) (dismissing as untimely a death row
inmate’s one-day-late federal habeas petition). Because
Savory’s claims are barred by the applicable statutes of
limitations, this suit is dismissed. The dismissal is with
prejudice because repleading could not possibly cure
the claims’ untimeliness. See Conover v. Lein, 87 F.3d
905, 908 (7th Cir. 1996) (noting that an untimely claim
should be dismissed with prejudice).
December 1, 2017
/s/
United States District Judge

App. 90

APPENDIX G
ILND 450 (Rev. 10/13) Judgment in a Civil Action
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Case No. 17 C 204
Judge Gary Feinerman
[Filed December 1, 2017]
____________________
Johnnie Lee Savory, )
)
Plaintiff(s),
)
)
v.
)
)
Cannon et al,
)
)
Defendant(s).
)
____________________ )
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
9 in favor of plaintiff(s)
and against defendant(s)
in the amount of $
,
which 9 includes
pre–judgment interest.
9 does not include pre–judgment interest.

App. 91
Post-judgment interest accrues on that amount at
the rate provided by law from the date of this
judgment.
Plaintiff(s) shall recover costs from defendant(s).

.

9 in favor of defendant(s)
and against plaintiff(s)
Defendant(s) shall recover costs from plaintiff(s).

: other: Judgment is entered in favor of
Defendants Charles Cannon, et al., and against
Plaintiff Johnnie Lee Savory.
This action was (check one):
9 tried by a jury with Judge
has rendered a verdict.

presiding, and the jury

9 tried by Judge
without a jury and the above
decision was reached.
: decided by Judge Gary Feinerman on a motion.

Date: 12/1/2017

Thomas G. Bruton, Clerk of Court
/s/ Jackie Deanes, Deputy Clerk

App. 92

APPENDIX H
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
No. 17-3543
[Filed March 6, 2019]
__________________________
JOHNNIE LEE SAVORY, )
Plaintiff-Appellant,
)
)
v.
)
)
WILLIAM CANNON, SR., )
as special representative for )
Charles Cannon, et al.,
)
Defendants-Appellees. )
__________________________ )
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-00204
Gary Feinerman, Judge.
By the Court:
ORDER
The petition for rehearing en banc is GRANTED.
The opinion and judgment entered by the panel are
VACATED. Oral argument will be heard on a date to
be set by further order.

App. 93

APPENDIX I
EXHIBIT B
State of Illinois
Executive Department
TO: Circuit Clerk, Peoria County, Circuit Court
of Peoria County, Illinois; Circuit Clerk, Knox
County, Circuit Court of Knox County, Illinois
Whereas, JOHNNY L. SAVORY (SID: 23061880) was
convicted of the crime of Murder/Intent to
Kill/Injure; Bring/Poss Contraband in Penal
Institution, Case: 77CF565; 93CF122 in the Circuit;
Circuit Court of Peoria; Knox County and was
sentenced June 12, 1981; September 21, 1994 to 40
to 80 Years IDOC; 2 Years IDOC (cc),
Whereas, it has been represented to me that JOHNNY
L. SAVORY (SID: 23061880) is a fit and proper
subject to Executive Clemency.
Now, Know Ye, that I, PAT QUINN, Governor of the
State of Illinois, by virtue of the authority vested in me
by the Constitution of the State, do by these presents:
PARDON
JOHNNY L. SAVORY (SID: 23061880)
of the said crime of which convicted, and JOHNNY L.
SAVORY (SID: 23061880) is hereby acquitted and
discharged of and from all further imprisonment and

App. 94
restored to all the rights of citizenship which may have
been forfeited by the conviction.
Grant Pardon With Order Permitting
Expungement Under The Provisions Of 20 ILCS
2630/5.2(e), Excluding The Right To Ship,
Transport, Possess, or Receive Firearms, Which
May Have Been Forfeited By The Conviction.
DATED: January 12, 2015

[SEAL]

/s/Patt Quinn
PAT QUINN
GOVERNOR
By the Governor:
/s/Jessee White
JESSE WHITE
SECRETARY OF STATE

App. 95
PARDON RECEIPT
A PARDON was issued by the Governor on January
12, 2015, to JOHNNY L. SAVORY (SID: 23061880),
who was convicted of the crime of Murder/Intent to
Kill/Injure; Bring/Poss Contraband in Penal
Institution, Case: 77CF565; 93CF122 in the Circuit;
Circuit Court of Peoria; Knox County and was
sentenced June 12, 1981; September 21, 1994 to 40
to 80 Years IDOC; 2 Years IDOC (cc).
The PARDON certificate was delivered to and received
by JOHNNY L. SAVORY (SID: 23061880) on
_____________________, ________________.
_________________________________________
S/ JOHNNY L. SAVORY (SID: 23061880)
Return to:
Prisoner Review Board
Suite A
319 East Madison Street
Springfield, Illinois 62701

App. 96

APPENDIX J
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 17-3543
[Filed February 4, 2019]
__________________________
JOHNNIE L. SAVORY,
)
Plaintiff-Appellant,
)
)
v.
)
)
CHARLES CANNON, et al., )
Defendants-Appellees. )
__________________________ )
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division,
No. 1:17-cv-00204.
The Honorable Gary Feinerman, Judge Presiding.
PETITION FOR REHEARING EN BANC
JAMES G. SOTOS
Counsel of Record
JOHN J. TIMBO
SARA J. SCHROEDER
LISA M. MEADOR
THE SOTOS LAW FIRM, P.C.

App. 97
141 W. Jackson Blvd., #1240A
Chicago, Illinois 60604
(630) 735-3300
Counsel for Defendants-Appellees
***
[Appearance & Circuit Rule 26.1 Disclosure
Statements, Table of Contents and
Table of Authorities Omitted in the
Printing of this Appendix]

App. 98
RULE 35(b)(1) STATEMENT
Defendants-Appellees request rehearing en banc of
the panel’s January 7, 2019 decision reversing the
dismissal of Plaintiff Savory’s Complaint. See Savory v.
Cannon, 912 F.3d 1030 (7th Cir. 2019). This petition
satisfies Fed. R. App. 35 (b) because the panel’s
application of Heck v. Humphrey, 512 U.S. 477 (1994)
to further delay accrual of Savory’s §1983 claims,
despite his being out of custody, and without access to
habeas relief, is in direct conflict with:
• Sanchez v. City of Chicago, 880 F.3d 349 (7th
Cir. 2018) (holding Heck does not bar §1983 claims
challenging the legality of a conviction where plaintiff
is no longer in custody for habeas purposes and
pursued appropriate collateral relief while in custody);
• Hoeft v. Joanis, 727 Fed.Appx. 881, 883 (7th Cir.
2018) (“The Supreme Court has not addressed whether
Heck applies to plaintiffs who sue for wrongful
convictions after they have been released from custody,
when they may no longer obtain collateral relief. But
we have ruled that Heck does not apply when an out-ofcustody plaintiff sought collateral review before a
release from prison....”)
• DeWalt v. Carter, 224 F.3d 607 (7th Cir. 2000)
(invoking Circuit Rule 40(e) and overruling Anderson
v. County of Montgomery, 111 F.3d 494 (7th Cir. 1997),
which had held Heck barred §1983 claims challenging
the legality of a conviction even if plaintiff was no
longer in custody and had no access to habeas relief);
• Simpson v. Nickel, 450 F.3d 303 (7th Cir. 2006)
(§1983 claims challenging the fact or duration of

App. 99
custody accrue when custody ends because Heck is
inapplicable when habeas is unavailable);
• Burd v. Sessler, 702 F.3d 429 (7th Cir. 2012)
(holding §1983 action may proceed without regard to
Heck so long as released plaintiff pursued collateral
relief while in custody so as not to skirt the Heck bar);
• Whitfield v. Howard, 852 F.3d 656 (7th Cir.
2017) (Heck does not bar §1983 actions where plaintiff
is out of custody and pursued appropriate collateral
relief while in custody).
The panel decision further conflicts with the
considered dictum of five Supreme Court justices in
Spencer v. Kemna, 523 U.S. 1 (1998), later adopted by
this court in DeWalt, pronouncing that individuals out
of custody, with no access to habeas, may bring §1983
actions alleging the unconstitutionality of a conviction
irrespective of Heck’s favorable termination rule.
This matter further presents a question of
exceptional importance because the panel decision
transcends this case to impermissibly bar former
prisoners from seeking recompense under §1983,
unless they can first convince a state governor to
pardon them, in contravention of the remedial purposes
underlying §1983.

App. 100
ARGUMENT1
En banc review should be granted because, in
straining to provide a remedy to Savory, the panel
decision directly conflicted with several of this court’s
precedents and imposes an impermissible hurdle on
prisoners who have completed their sentences and seek
a federal forum to demonstrate the illegality of their
conviction. A primary purpose underlying 42 U.S.C.
§1983, was to provide a federal remedy to protect all
citizens against state sponsored infringement of
constitutional rights. See Cong. Globe, 42nd Cong., 1st
Sess., 335, 374-376. Congress deemed a federal remedy
necessary because the states could not be counted on to
protect Fourteenth Amendment rights due to their
“prejudice, passion, neglect, [or] intolerance.” Monroe
v. Pape, 365 U.S. 167, 180 (1961). Consistently, §1983
does not condition the right to file suit on the approval
of state officials (Patsy v. Board of Regents, 457 U.S.
496, 501 (1982)), yet as explained below, the panel’s
decision will require just that (in conflict with this
Circuit’s stare decisis) by necessitating that released
prisoners first obtain a pardon from a state governor
before being allowed to pursue a §1983 action.

1

References to the district court record are noted as “R.” followed
by docket and page number, and references to appellate briefs are
noted as “Pl. Br.” and “Def. Br.” followed by docket and page
number.

App. 101
I. The Panel’s Decision Improperly Departed
from Existing Circuit Precedent and Creates
Intra-Circuit Conflict.
The panel rested its decision to impose a Heck bar
on a former prisoner’s right to challenge the legality of
his conviction under §1983 almost exclusively on Heck’s
pronouncement that:
We think the hoary principle that civil tort
actions are not appropriate vehicles for
challenging the validity of outstanding criminal
judgments applies to §1983 damages actions
that necessarily require the plaintiff to prove the
unlawfulness of his conviction or confinement,
just as it has always applied to actions for
malicious prosecution. We hold that, in order to
recover damages for allegedly unconstitutional
conviction or imprisonment, or for other harm
caused by actions whose unlawfulness would
render a conviction or sentence invalid, a §1983
plaintiff must prove that the conviction or
sentence has been reversed on direct appeal,
expunged by executive order, declared invalid by
a state tribunal authorized to make such
determination, or called into question by a
federal court’s issuance of a writ of habeas
corpus, 28 U.S.C. § 2254.
Savory, 912 F.3d at 1033, citing Heck, 512 U.S. at 4867.
But the panel’s view that it was bound by that
holding, and that Savory’s case “began and ended” with
Heck (Savory, 912 F.3d at 1033), was incorrect because

App. 102
Heck, unlike Savory, was still incarcerated when he
sued under §1983. Heck, 512 U.S. at 478. Furthermore,
the panel’s decision to “end” at Heck ignored the
Circuit’s stare decisis that upholds the right of released
prisoners, with no access to habeas relief, to pursue
§1983 actions challenging the legality of their
convictions where they first sought collateral relief
while in custody. (e.g., Sanchez, 880 F.3d 349; Hoeft,
727 Fed.Appx. at 883, DeWalt, 224 F.3d 607).2
To start, Heck’s imposition of a favorable
termination condition on Heck’s right to sue was
supported by the Court’s concerns “for finality and
consistency and [its general reluctance to] expand
opportunities for collateral attack….” Id. at 485. These
concerns are at their apex in the context of a prisoner
under sentence who already has access to a wide array
of state and federal remedies for constitutional
challenges to confinement, including appeal, postconviction, clemency, and habeas. Indeed, the point of
Heck was to reconcile the potential collision brewing at
the “intersection of the two most fertile sources of
federal-court prisoner litigation…42 U.S.C. §1983, and
the federal habeas corpus statute, 28 U.S.C. §2254.” Id.
at 480.
But unlike Heck, Savory was paroled in 2006 and
formally released from custody in 2011, 5 years before
he sued. Def. Br., Dkt. 22 at 5. At that point, concern

2

Sanchez and Hoeft were cited in Defendants’ response brief (Def.
Br., Dkt. 22 at p. 19), and Sanchez was further emphasized in a
supplemental submission following oral argument. (Dkt. 43 at 4).
Neither case was acknowledged in the panel decision.

App. 103
over collision with habeas proceedings evaporated
because Savory no longer had access to that remedy.
The importance of this custodial distinction was first
recognized by Justice Souter in a four Justice
concurrence in Heck itself, where he explained that
subjecting individuals not in custody to a Heck bar
would “deny any federal forum for claiming a
deprivation of federal rights to those who cannot first
obtain a favorable state ruling.” Heck, 512 U.S. at 500
(Souter, J., concurring).
Four years after Heck, Justices Ginsberg Breyer,
and Stevens also embraced Justice Souter’s Heck
concurrence, in Spencer v. Kemna, 523 U.S. 1, 18-22, 25
n.8 (1998) (Souter, J., joined by O’Connor, Ginsberg,
and Breyer J.J., concurring; Stevens, J., dissenting).
The Justices explained in Spencer that Heck is best
understood as a common-sense effort to minimize
federal interference with state criminal proceedings by
forestalling §1983 challenges to extant criminal
convictions while plaintiff serves his sentence. Id.
While a prisoner is in custody, requiring that a
favorable termination of his conviction precede any
§1983 claim is a sensible way to avoid adding another
collateral remedy to a prisoner’s arsenal, and with it all
the attendant risks of potentially inconsistent
decisions. Id.
But, as recognized by the Justices in Spencer, the
completion of a criminal sentence and ensuing release
from custody changes everything. Once a prisoner has
paid his debt to society, he has no further access to
habeas relief, and a §1983 claim is often the only
available remedy to address the illegality of his

App. 104
conviction. As a result, Heck’s concerns for an overabundance of remedies evaporates, as does its concern
over a collision between the federal habeas statute and
§1983.
Viewed against that backdrop, the panel’s view that
Savory’s case “began and ended with Heck,” Savory,
912 F.3d at 1033, is fundamentally flawed. Indeed, just
last year this Court specifically held that a plaintiff
who, following release from custody, alleged under
§1983 that he was “framed”, was not barred by Heck
despite not first having his conviction invalidated,
because “Heck does not bar a suit by a plaintiff who is
no longer in custody but who (like Savory) pursued a
collateral attack through appropriate channels while
he was in custody, even if such efforts were
unavailing.” Sanchez, 880 F.3d at 356. See also Hoeft,
727 Fed.Appx. at 883 (Heck does not apply to §1983
action alleging coerced confession where plaintiff is out
of custody and sought collateral review before release.)
This Circuit’s adoption of the Spencer and Heck
concurrences traces to DeWalt v. Carter, 224 F.3d 607
(2000), where this court announced the rule that “a
§1983 action must be available to challenge
constitutional wrongs where federal habeas is not
available.” DeWalt, 224 F.3d at 617. Any ambiguity as
to the breadth of this court’s commitment to that rule
was eliminated when, by Circuit Rule 40(e), it
overruled previous holdings that contradicted the
Spencer justices, including Anderson v. County of
Montgomery, 111 F.3d 494 (7th Cir. 1997). See DeWalt,
224 F.3d at 617-18, n.6. In Anderson, this court had
relied on the exact same reasoning as the instant panel

App. 105
– that Heck trumps Justice Souter’s concurrence – to
apply the Heck-bar to the out-of-custody plaintiff. 111
F.3d at 499. DeWalt explained the decision to overrule
Anderson on the basis that it pre-dated Spencer, and
“in light of the [Spencer] Justices’ reluctance to apply
the Heck rule to situations in which habeas relief is not
available,” DeWalt, 224 F.3d at 617.
Indeed, the divergent manners in which DeWalt and
the instant panel dealt with Spencer, further
demonstrates the need for en banc consideration. In
overruling Anderson, DeWalt deferred to Spencer in
explaining that it was “hesitant to apply the Heck rule
in such a way as would contravene the pronouncement
of five sitting justices.” 224 F.3d at 616-17. This court
further decided DeWalt’s claims “in the absence of
binding Supreme Court precedent, and in light of the
guidance offered by the concurrences in Heck and
Spencer.” Id. But the instant panel concluded contrarily
that it was bound by Heck, and dismissed the
concurrences as “minority views” and “dicta from a
collection of concurrences and dissents [that] may not
overrule majority opinions”, while acknowledging that
“[t]he Supreme Court may eventually adopt Justice
Souter’s view but it has not yet done so and we are
bound by Heck.” Savory, 912 F.3d at 1036. Indeed, the
panel cited Heck’s footnote 10 as the majority rule that
bound it to reject Justice Souter’s rule, Savory, 912
F.3d at 1035, even though the Supreme Court itself has
since acknowledged that whether the unavailability of
habeas dispenses with the Heck requirement remains
unsettled. See Muhammad v. Close, 540 U.S. 749, 752
n.2 (2004).

App. 106
II. The Panel Decision Transcends this Case to
Impermissibly Bar Former Prisoners From
Utilizing §1983 Until They Receive a
Gubernatorial Pardon.
Ultimately, the panel’s decision to rigorously apply
Heck may have been inspired more by its concern that,
only by doing so, could Savory obtain a hearing on his
claims of official misconduct. Indeed, Savory argued
(Pl. Br., Dkt. 12 at 41, Dkt. 26 at 18), and the panel
inquired (Oral Argument at 16:49, Savory v. Cannon,
Case No. 17-3543 (7th Cir. October 25, 2018)), as to
how Savory’s claims could have survived claim and
issue preclusion3 defenses if he had been forced to file
suit, without the benefit of a Heck bar, within two
years of his 2011 release.
But the breadth of preclusion doctrines was not a
concern that animated Heck, which was only intended
to minimize federal interference in pending state
criminal proceedings and more specifically, avoid
circumvention of habeas through §1983 claims. Heck,
512 U.S. 485-87. Further, analysis of the true scope of
preclusion reveals that the panel decision actually
betrays principles of federalism and finality upon
which preclusion doctrines are premised; and just as
importantly, will impermissibly deny deserving
plaintiffs access to §1983, in contravention of the
purposes of the Civil Rights Act.

3

Claim and issue preclusion are interchangeably referred to as res
judicata and collateral estoppel respectively. For ease of reference
the former nomenclature is utilized here.

App. 107
To be sure, preclusion may well have defeated
Savory’s claims, as well as those of most other former
prisoners’ §1983 challenges to convictions which have
not been overturned or expunged. But that is as
intended. When a former prisoner, like Savory, has
unsuccessfully brought multiple claims, on direct
appeal, post-conviction, and habeas, preclusion’s
principles of finality are supposed to signal an end to
otherwise endless litigation, notwithstanding a
litigant’s strident insistence that he was wronged. For
instance, in Sanchez, supra, 880 F.3d at 356-58, this
court agreed with a plaintiff’s assertion that, because
he was not in custody, Heck did not bar his §1983 claim
alleging he had been framed, but nonetheless
concluded that principles of preclusion barred his suit
due to final state court determinations in his criminal
case. Id.
Indeed, principles of finality underlying preclusion
doctrines are “essential to the operation of our criminal
justice system,” Foster v. Chatman, 136 S.Ct. 1737,
1759 (2016) (Alito, J., concurring), and should not be
lightly tossed aside. Preclusion doctrines ensure courts
are not overwhelmed with the flood of federal
challenges to state criminal convictions that Savory
incorrectly predicts would flow from removing the Heck
bar upon a prisoner’s release from custody. Pl. Br., Dkt.
12 at 39. Simply stated, if a litigant cannot
demonstrate that his criminal conviction was reversed
or expunged while he was under sentence, principles of
preclusion should ordinarily bar §1983 litigation over
the legality of his conviction, and a Heck bar is
unnecessary to further deter such claims. Indeed, Heck

App. 108
was never intended to stem the tide of §1983 claims
instituted by released prisoners.
That said, Savory’s suggestion that preclusion
doctrines are so broad that they will bar all former
prisoners’ well-founded claims in the absence of a Heck
bar is dramatically exaggerated. Pl. Br., Dkt. 12 at 41.
Indeed, claim and issue preclusion are equitable
doctrines, which must not be applied “unless it is clear
that no unfairness results to the party being estopped.”
Sornberger v. City of Knoxville, Ill., 434 F.3d 1006,
1023 (7th Cir. 2006). Thus, preclusion would not bar a
§1983 claim by a plaintiff who alleged he was framed,
and that his conviction was corrupted by concealment
of evidence which only surfaced, through no fault of his
own, after he completed his sentence. See, e.g., Wsol v.
Carr, 2001 WL 1104641 *8 (N.D. Ill. Sept. 18 , 2001)
(collateral estoppel does not apply when important
newly discovered evidence surfaces so long as plaintiff
“was in no way responsible for the lack of such
evidence”); Central States, Southeast and Southwest
Areas Pension Fund v. Central Transport, Inc., 962
F.Supp. 122, 123 (N.D. Ill. 1997) (same).
But plaintiffs victimized by concealed evidence
would not fare so well under the panel decision here.
By way of illustration, in Bembenek v. Donohoo, 355
F.Supp.2d 942, 948-50 (E.D. Wis. 2005), defendants
argued Heck barred a released prisoner’s §1983 claim
alleging she was framed for murder, even though the
claim was based on new evidence discovered after her
release from custody, because her conviction was not
overturned or invalidated. Denying the motion, the
court relied on DeWalt and Spencer in concluding Heck

App. 109
was inapplicable because plaintiff was not in custody
and had no remedy for her claims of official
misconduct, other than §1983. Id.
Notably, the instant panel’s decision would have
barred Bembenek’s lawsuit unless she were first able
to secure a gubernatorial pardon, in contravention of
§1983’s purpose to provide a federal remedy for official
abuse of State created power. Maybe Bembenek would
have obtained a pardon; maybe not. But query if the
governor was a former prosecutor involved in the
alleged misconduct who could prevent a §1983 suit
from being filed simply by denying the pardon. Or even
if uninvolved in her case, but due to political leanings
or platform positions on criminal justice, the governor
simply found it expedient to deny the pardon, or to sit
on it with no resolution. Under the instant panel
decision, a governor’s corruption, willful ignorance,
mere laziness, or contrary views, could forever deny the
plaintiff a federal forum; or at least until a state
executive with a favorable view of plaintiff’s case took
office. Such a result cannot be squared with the
fundamental purposes of §1983.
Indeed, the court need look no further than the facts
of this case to grasp the absurdity of conditioning
access to §1983 on a released prisoner’s ability to
convince a governor to pardon him. During his 30 years
of incarceration, Plaintiff exercised every option for
collateral relief, including two habeas petitions, which
were all rejected, including one by this Court. See
Savory v. Lane, 832 F.2d 1011 (7th Cir. 1987).
Following his formal release from custody in 2011, with
his conviction still standing, Plaintiff directed turned

App. 110
to Illinois’ governor. But there is no known process
governing such pleas, no record of what forms these
pleas took, no record if there was a hearing, or whether
there were simply phone calls that accompanied
written submissions, or whether the governor himself
knew anything about the case, or whether a deputy or
other aide made the ultimate decision, or on what
basis.
Rather, all that is known is that in 2011, former
Governor Quinn commuted Savory’s sentence, and then
four years later, with no explanation, he elected to
issue Savory a general “pardon”, though not based on
innocence.4 Unsatisfied, Savory then submitted a
supplemental petition for executive clemency to Illinois
Governor Bruce Rauner requesting a pardon based on
innocence. On January 11, 2019, the Prisoner Review
Board issued a letter to Savory’s counsel informing
Savory’s supplemental petition, which was heard in
October 2016, was denied by Governor Rauner. The
letter further indicated the reasoning for granting or
denying clemency would not be disclosed, however,
Savory was welcome to file yet another clemency
petition once incoming Illinois Governor Jay Pritzker
began his term. Id. In the event he too denies Savory’s
anticipated petition, it can be reasonably expected that,
absent any legal barriers to additional petitions (and
4

“Since at least 1977, Illinois has adhered to the view that two
forms of pardon are presently used by the Governor of this state,
one based upon innocence of the defendant and the other merely
pardoning the defendant without reference to his innocence.”
Walden v. City of Chicago, 391 F.Supp.2d 660, 671 (N.D. Ill. 2005).
Savory’s pardon fell into the latter category. See R., Dkt. 71-1, Ex.
B.

App. 111
there are none), Plaintiff will continue to ask every
future Governor for clemency.5 That, of course, is his
right, but the notion that a clandestine process which
provides unlimited bites at the apple should be the
trigger for asserting claims under §1983 is absurd and
inconsistent with the fundamental purposes of the Civil
Rights Act.
And finally, the absence of any finality stemming
from the panel decision completely disregards the
important purposes underlying statutes of limitations.
See United States v. Kubrick, 444 U.S. 111, 125 (1979)
(the very purpose of statutes of limitations is as
compelling as the statutory rights to which they are
attached.). Statutes of limitations communicate what
is a reasonable time for plaintiffs to develop and assert
claims while “protect[ing] defendants and the courts
from having to deal with cases in which the search for
truth may be seriously impaired by the loss of evidence,
whether by death or disappearance of witnesses, fading
memories, disappearance of documents, or otherwise.
Id.

5

Governor Rauner’s denial occurred after the panel issued its
opinion. Defendant-Appellees received a copy of the letter from the
Peoria County State’s Attorney’s Office on January 18, 2019. On
January 31, 2019, Savory’s counsel declined Defendants’ request
to stipulate to add Governor Rauner’s denial of Savory’s latest
clemency petition to the record, because it was not considered
below or by the panel, and because the record was not created until
after the appeal was decided. Defendants-Appellees thus have filed
a motion to supplement the record on appeal, contemporaneous
with the instant motion, on February 4, 2019, and have attached
Governor Rauner’s letter as an exhibit thereto.

App. 112
Here, it is hard to imagine a scenario more
dismissive of the purposes underlying statutes of
limitations than what is created by the panel decision.
Limitations periods on wrongful conviction claims are
already postponed, often for decades, until a conviction
is reversed or invalidated, or the prisoner completes his
sentence and is released. Further postponing the
process by requiring released prisoners to first obtain
a gubernatorial pardon means it can go on forever, with
no endpoint. See Stephan v. Goldinger, 325 F.3d 874,
876 (7th Cir. 2003) (the theory of statutes of limitations
is that even if one has a just claim it is unjust to wait
and provide notice after the limitations period has
expired and the right to be free from stale claims
trumps the right to prosecute them.) Limitations
periods promote justice by preventing the surprise of
dormant claims that defendants believed have long
extinguished, and by sparing “courts the burden of
having to adjudicate claims that because of their
staleness may be impossible to resolve with even
minimum accuracy.” Id.
CONCLUSION
Heck is a common-sense limitation on the ability of
prisoners to circumvent well established remedies
including habeas for challenging the legality of
confinement. It was not intended as a limitation on the
breadth of preclusion doctrines, nor as a bar on a
released prisoner’s right to pursue a §1983 claim
absent a state governor’s prior approval. Once Savory
was released, Heck was no longer a concern, and he
still had two years to sue. While that suit would likely
have confronted preclusion obstacles, Savory could

App. 113
have overcome those obstacles by establishing an
equitable exception, such as the discovery of previously
unavailable new evidence. Absent such a showing,
preclusion doctrines should have defeated Savory’s
claims, and Heck was not intended to save them due to
the expedience of a vague pardon. That result directly
contradicted this court’s controlling precedents and the
considered dictum of five justices in Spencer, and was
fundamentally at odds with the purposes underlying
§1983. As a result, this court should hear this case en
banc in order to secure and maintain uniformity of the
court’s decisions and to address the questions of
exceptional importance presented.
Date: February 4, 2019
Respectfully submitted,
/s/ James G. Sotos
JAMES G. SOTOS, Attorney No. 6191975
One of the Attorneys for Defendants-Appellees
James G. Sotos
John J. Timbo
Sara J. Schroeder
Lisa M. Meador
THE SOTOS LAW FIRM, P.C.
141 W. Jackson Blvd., #1240A
Chicago, IL 60604
(630) 735-3300
Fax (630) 773-0980
jsotos@jsotoslaw.com

App. 114
***
[Certificate of Compliance and Certificate of Service
Omitted in the Printing of this Appendix]

App. 115

APPENDIX K
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 17-3543
[Filed July 15, 2019]
__________________________
JOHNNIE L. SAVORY,
)
Plaintiff-Appellant,
)
)
v.
)
)
CHARLES CANNON, SR., )
as special representative for )
Charles Cannon, et al.,
)
Defendants-Appellees. )
__________________________ )
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division
Case No. 1:17-cv-00204—Gary Feinerman, Judge.
SUPPLEMENTAL BRIEF OF
JOHNNIE LEE SAVORY
Arthur Loevy
Jon Loevy
Steven Art*
Julia Rickert

App. 116
Megan Pierce
LOEVY & LOEVY
311 N. Aberdeen St.
Third Floor
Chicago, IL 60607
(312) 243-5900
steve@loevy.com
Flint Taylor
John L. Stainthorp
PEOPLE’S LAW OFFICE
1180 N. Milwaukee Ave.
Chicago, IL 60642
(773) 235-0700
Locke E. Bowman
Tony Balkissoon
THE RODERICK AND SOLANGE
MACARTHUR JUSTICE CENTER
Northwestern University
School of Law
375 E. Chicago Ave.
Chicago, IL 60611
(312) 503-1271
*Counsel of Record

App. 117
***
[Appearance & Circuit Rule 26.1 Disclosure
Statements, Table of Contents and
Table of Authorities Omitted in the
Printing of this Appendix]

App. 118
INTRODUCTION
If Supreme Court precedent before McDonough v.
Smith, 139 S. Ct. 2149 (2019), left room to debate the
accrual rule that applies to this case, McDonough
resolves that question conclusively in Savory’s favor.
McDonough confirms everything Savory has argued
already in this appeal. Savory’s §1983 claims accrued
when his conviction was set aside—not with his earlier
release from custody.
McDonough imposes a favorable-termination
requirement in all cases challenging state criminal
proceedings and their resulting judgments. “Only once
the criminal proceeding has ended in the defendant’s
favor, or a resulting conviction has been invalidated
within the meaning of Heck,” the Court pronounced,
“will the statute of limitations begin to run.” Id. at
2158. Only means only—no other event will cause the
statute of limitations to run. Under McDonough, §1983
claims challenging a state criminal case cannot be filed,
if ever, until the criminal case terminates in the
defendant’s favor. There are no exceptions.
This conclusion is confirmed not only by
McDonough’s express language, but also by the Court’s
reasoning and the policy considerations it invoked.
McDonough reiterates that accrual rules are fashioned
by analogy to common-law torts and that claims
challenging state criminal cases are analogous to
malicious prosecution, making favorable termination a
prerequisite to suit. The opinion states that a respect
for state functions dictates that §1983 cannot be used
to collaterally attack state-court judgments. It notes
that claims within the domain of habeas corpus—those

App. 119
seeking the type of relief exclusive to federal habeas,
such as invalidation of a conviction—cannot be pursued
using §1983 prior to favorable termination of the state
criminal case. And it stresses that avoiding conflicting
civil and criminal judgments is important, and that a
regime requiring a large number of §1983 claims to be
filed and stayed would be undesirable. A favorabletermination requirement, McDonough concluded, best
serves “core principles of federalism, comity,
consistency, and judicial economy.” 139 S. Ct. at 2158.
Thus, the Supreme Court has imposed a uniform
accrual rule for all §1983 claims challenging state
criminal proceedings and their resulting judgments:
those claims do not accrue until favorable termination
of the criminal case. Savory’s criminal case did not
terminate in his favor until his conviction was set aside
by the governor’s pardon. On that date, Savory’s §1983
claims accrued, and this suit was timely filed. This
Court should reverse.
ARGUMENT
I. McDONOUGH HOLDS THAT CLAIMS LIKE
SAVORY’S ACCRUE WITH FAVORABLE
TERMINATION OF THE CRIMINAL CASE
There is no fair reading of McDonough that
supports the Appellees’ view that Savory’s §1983 claims
accrued when he was released from custody. Custody
played no role in the Court’s decision. Instead, the
Court categorically held that the limitations period for
due process claims challenging state criminal
proceedings “does not begin to run until the criminal
proceedings against the defendant (i.e., the §1983

App. 120
plaintiff) have terminated in his favor.” 139 S. Ct. at
2154-55. There is no reasonable definition of “favorable
termination” that would encompass mere release from
custody. Savory’s criminal case did not terminate
favorably until his pardon.
This appeal asks when the statute of limitations
began to run on Savory’s §1983 claims challenging his
criminal prosecution and conviction. It is difficult to
imagine a more direct answer to that question than:
“Only once the criminal proceeding ha[d] ended in
[Savory]’s favor, or [Savory’s] resulting conviction ha[d]
been invalidated within the meaning of Heck[.]”
McDonough, 139 S. Ct. at 2158 (citing Heck v.
Humphrey, 512 U.S. 477, 486-87 (1994)) (emphasis
added). Importantly, Savory did not satisfy either of
these conditions until he was pardoned. Considering
McDonough and Heck together, it is impossible to
conclude that Savory should have filed suit while his
conviction was intact.
It is important that the Court used the word “only”
when it set out the conditions that will cause the
limitations period to run on §1983 claims challenging
state criminal cases. Id. In so doing, McDonough
provided the lower courts with an exclusive list of the
events that cause claims like Savory’s to accrue. The
criminal case must have resolved in the defendant’s
favor; and if the case resulted in a conviction,
invalidation of the conviction is a prerequisite. Savory’s
criminal case did not resolve in his favor when he was
released—he had merely served his sentence—and his
conviction was not invalidated until it was expunged by
executive order.

App. 121
McDonough did not qualify this rule whatsoever.
The Court did not suggest that there might be an
exception for the large category of state criminal
defendants who are convicted and later released from
prison. It did not even hint that its decision turned on
whether the particular criminal defendant before the
court is in custody or can obtain federal habeas relief.
There was no mention of the concurring or dissenting
opinions in Spencer v. Kemna, 523 U.S. 1 (1998), or
Justice Souter’s concurrence in Heck. McDonough
contains no trace of the arguments for an early accrual
rule advanced by the Appellees and accepted by the
district court in this case.
The panel wrote, “Heck controls the result here.”
Savory v. Cannon, 912 F.3d 1030, 1038 (7th Cir. 2019).
Even if there might have been a dispute about whether
Heck controlled at that time, McDonough resolves that
dispute without room for debate.
II. McDONOUGH REAFFIRMS THAT HECK’S
FAVORABLE-TERMINATION REQUIREMENT
APPLIES WHENEVER A CONVICTION IS
CHALLENGED
The Appellees might contend that McDonough can
be distinguished because the plaintiff there was not
convicted. But McDonough explains that this is a
distinction without a difference, and it reaffirms that
Heck’s “favorable-termination requirement . . . applies
whenever ‘a judgment in favor of the plaintiff would
necessarily imply’ that his prior conviction or sentence
was invalid.” 139 S. Ct. at 2157 (quoting Heck, 512 U.S.
at 487) (emphasis added).

App. 122
The Court in McDonough emphasized repeatedly
that it was merely extending Heck’s favorabletermination framework to all §1983 claims challenging
state criminal proceedings conducted pursuant to legal
process, whether or not a conviction was the result.
“Heck explains why favorable termination is both
relevant and required for a claim . . . that would
impugn a conviction,” the Court wrote, “and that
rationale extends to an ongoing prosecution as well
. . . . If the date of the favorable termination was
relevant in Heck, it is relevant here.” McDonough, 139
S. Ct. at 2160; see also id. at 2158 (“The principles and
reasoning of Heck . . . point toward a corollary result
here[.]”); id. at 2157 (“Because a civil claim such as
McDonough’s . . . implicates the same concerns
[discussed in Heck], it makes sense to adopt the same
rule.”).
As it extended Heck’s rule to all suits challenging
state criminal cases, McDonough reaffirmed the
principal holding of Heck, which controls here:
[T]he Court in Heck held that “in order to
recover damages for allegedly unconstitutional
conviction or imprisonment, or for other harm
caused by actions whose unlawfulness would
render a conviction or sentence invalid,” a
plaintiff in a §1983 action first had to prove that
his conviction had been invalidated in some way,
[Heck, 512 U.S. at 486]. This favorabletermination requirement, the Court explained,
applies whenever “a judgment in favor of the
plaintiff would necessarily imply” that his prior
conviction or sentence was invalid. Id., at 487.

App. 123
139 S. Ct. at 2157. And when McDonough emphasized
that the statute of limitations begins to run “only once
the criminal proceeding has ended in the defendant’s
favor, or a resulting conviction has been invalidated
within the meaning of Heck,” 139 S. Ct. at 2158, the
Court cited Heck’s rule that a §1983 plaintiff must
“prove that the conviction . . . has been reversed on
direct appeal, expunged by executive order, declared
invalid by a state tribunal . . . , or called into question
by a federal court’s issuance of a writ of habeas
corpus[.]” 512 U.S. at 486-87.1
The Appellees argued before McDonough that
Supreme Court and Seventh Circuit cases following
Heck relaxed its favorable-termination requirement.
But McDonough has foreclosed this argument by
making clear that the requirement persists in full
force: whenever a §1983 judgment would imply that a
conviction is unconstitutional, the invalidation of that
conviction is a prerequisite to suit. 139 S. Ct. at 2157.
McDonough represents an expansion of this favorabletermination requirement to all §1983 suits attacking
state criminal cases. Savory’s criminal case terminated
in his favor with his pardon, and only then could he
sue.

1

Even the dissenting Justices, who would have dismissed the case
as improvidently granted, agreed that Heck bars a §1983 plaintiff
from recovering damages for an unconstitutional conviction until
the conviction has been “reversed, expunged, invalidated, or
otherwise called into question.” McDonough, 139 S. Ct. at 2161-62
& n.1 (Thomas, J., dissenting) (citing Heck, 512 U.S. at 486-87).

App. 124
III.

THE REASONING OF McDONOUGH
SUPPORTS SAVORY AS WELL

Savory has contended that Heck’s reasoning and the
policy considerations it invoked also support his
accrual position. Doc. 12 at 17-21; Doc. 28 at 3-4, 16-22;
Doc. 58 at 3-5, 9-11. The Court relied on precisely the
same reasoning and policy concerns in McDonough. In
addition to its express language, McDonough’s
reasoning and policy discussion supports Savory’s
position.
A. McDonough Confirms That Accrual Rules
Are Fashioned by Analogy to Common-Law
Torts and That Claims Challenging State
Criminal Cases Resemble Malicious
Prosecution
McDonough reaffirms that the accrual of §1983
claims is a federal question answered “by referring to
the common-law principles governing analogous torts.”
139 S. Ct. at 2156. The Court decided the claims in
McDonough, like those in Heck, were analogous to
common-law malicious prosecution. Id. (“[B]oth claims
challenge the integrity of criminal prosecutions
undertaken ‘pursuant to legal process.’”). The Court
noted that “two constitutional claims may differ yet
still both resemble malicious prosecution more than
any other common-law tort,” and that Heck
“analogiz[ed] malicious prosecution to several distinct
claims.” Id. at 2156 n.5.
Malicious prosecution, the Court reiterated, is “a
type of claim that accrues only once the underlying
criminal proceedings have resolved in the plaintiff’s

App. 125
favor.” Id. at 2156. Because “favorable termination is
both relevant and required for a claim analogous to
malicious prosecution,” such §1983 claims do not accrue
until a favorable termination is obtained. Id. at 2160.
Like McDonough’s and Heck’s §1983 claims, Savory’s
claims are most analogous to malicious prosecution,
and so they accrued with favorable termination of his
criminal case.
B. McDonough Reiterates That §1983 Cannot
Be Used to Collaterally Attack A State
Criminal Judgment
McDonough’s favorable-termination requirement
followed not only “from the rule for the most natural
common-law analogy,” but also “from the practical
considerations that have previously led this Court to
defer accrual of claims that would otherwise constitute
an untenable collateral attack on a criminal judgment.”
139 S. Ct. at 2155. McDonough stressed repeatedly
that deferring accrual until favorable termination
“avoids allowing collateral attacks on criminal
judgments through civil litigation.” Id. at 2157. And it
reaffirmed Heck’s sentiment that “‘concerns for finality
and consistency’ . . . have motivated [the] Court to
refrain from multiplying avenues for collateral attack
on criminal judgments through civil tort vehicles such
as §1983.” Id. at 2157 (quoting Heck, 512 U.S. at 485).
The Court recognized that blocking §1983 suits that
collaterally attack state criminal judgments promotes
respect for state-court proceedings and judgments,
among other important comity principles. McDonough,
139 S. Ct. at 2156-57 (citing Preiser v. Rodriguez, 411
U.S. 475, 490 (1973), and Younger v. Harris, 401 U.S.

App. 126
37, 43 (1971)). In addition, by deferring a §1983 suit
until the state court judgment is invalidated,
McDonough and Heck avoid the preclusion problems
that would otherwise be presented. McDonough, 139 S.
Ct. at 2158-59; see also 28 U.S.C. §1738; Allen v.
McCurry, 449 U.S. 90, 105 (1980); Doc. 28 at 18-21
(explaining that all §1983 claims attacking extant and
final state criminal judgments would be barred by
preclusion and abstention principles under existing
Supreme Court precedents).
In line with these considerations, Savory could not
have used §1983 to collaterally attack his extant
conviction without undermining fundamental finality
and comity principles, and such a suit would have
called for abstention or would have been precluded as
a result of the then-existing state criminal judgment.
Doc. 12 at 19-21, 41-42; Doc. 28 at 16-21; Doc. 58 at 911.
C. McDonough’s Limited Discussion of
Federal Habeas Corpus Supports Savory’s
Proposed Favorable-Termination Rule
McDonough contains just two mentions of federal
habeas corpus. 139 S. Ct. at 2157 n.6 & 2158. The
Court said nothing to support the district court’s view
that “[w]hen habeas is not available, §1983 is,” R.95 at
6, and it did not even suggest that its favorabletermination requirement applies only when a litigant
is in custody. The Court’s decision simply did not turn
on the “availability” of habeas relief. On the contrary,
what little the Court did say about habeas firmly
supports Savory’s proposed accrual rule.

App. 127
McDonough observed that “the pragmatic
considerations discussed in Heck apply generally to
civil suits within the domain of habeas corpus, not only
to those that challenge convictions.” 139 S. Ct. at 2158.
Like other cases in the Heck line, McDonough thought
it important to guard against §1983 claims that
infringe in the domain of habeas by barring suits that
seek the type of relief reserved to habeas corpus. The
Court noted that claims falling within that domain
include both those that challenge convictions and also
those that challenge the criminal case prior to a
conviction. Id.; see also id. at 2157 n.6. A plaintiff
raising such a claim “ha[s] a complete and present
cause of action . . . only once the criminal proceedings
against him terminate[] in his favor.” Id. at 2159.
Savory’s claims fall “within the domain of habeas
corpus.” First, the passage of McDonough quoted
directly above acknowledges that claims challenging
state criminal convictions fall within that domain. Id.
at 2158. Second, Savory’s §1983 claims allege
constitutional defects in his state criminal case, and relitigation of federal claims passed upon by state
criminal courts is at the core of federal habeas. 28
U.S.C. §2254(d); Brown v. Allen, 344 U.S. 443 (1953).
Third, and most fundamentally, throughout the 150
years that lower federal courts have enjoyed the power
to grant relief from state criminal judgments, the writ
of habeas corpus has always been the exclusive
mechanism for providing such relief. See generally Fay
v. Noia, 372 U.S. 391, 399-415 (1963). And the
Supreme Court noted in Allen that, in passing §1983,
Congress did not provide an alternative avenue to
obtain federal relief from a state criminal judgment.

App. 128
449 U.S. at 104 & n.24 (“It is difficult to believe that
the drafters of [§1983] considered it a substitute for a
federal writ of habeas corpus[.]”).
When a claim seeks invalidation of an extant state
criminal judgment, federal relief is obtained, if at all,
using §2254, and not by way of a civil suit under §1983.
Heck mandated that this categorical restriction applies
even if the litigant is no longer in custody, 512 U.S. at
490 n.10; and even after state remedies are exhausted,
id. at 489 (“Even a prisoner who has fully exhausted
available state remedies has no cause of action under
§1983 unless and until the conviction or sentence is
reversed, expunged, invalidated, or impugned by the
grant of a writ of habeas corpus.”). McDonough
reiterated the restriction. “The proper approach in our
federal system,” McDonough explains, “is for a criminal
defendant who believes that the criminal proceedings
against him [violates due process] to defend himself at
trial and, if necessary, then to attack any resulting
conviction through collateral review proceedings.” 139
S. Ct. at 2159.
Unless and until a criminal case terminates
favorably, §2254 supplies the exclusive mechanism for
federal relief from a state criminal case and its
judgments. Only with favorable termination of Savory’s
criminal case did concerns about infringing on habeas
dissipate.2
2

The domain of habeas is not defined by whether habeas relief is
available to the particular litigant before the court. The district
court incorrectly embraced that view when it employed the false
premise that “[w]hen habeas is not available, §1983 is[.]” R.95 at
6. A claim does not suddenly fall outside of the domain of habeas

App. 129
D. Other
Concerns
Highlighted
McDonough Support Savory

by

The Court highlighted a number of other
considerations in McDonough, which also support
Savory’s position. First, it noted that the favorabletermination requirement “is rooted in pragmatic
concerns with avoiding parallel criminal and civil
litigation over the same subject matter and the related
possibility of conflicting civil and criminal judgments.”
Id. at 2156-57. Conflicting state and federal
proceedings, the Court emphasized, “would run counter
to core principles of federalism, comity, consistency,
and judicial economy.” Id. at 2158. If §1983 suits
challenging the validity of extant convictions were
permitted, it would spawn routine conflicts between
federal and state proceedings and judgments.
Second, when McDonough imposed a blanket
favorable-termination rule, it rejected the respondent’s
suggestion that concerns about conflicting state and
federal cases could be avoided by staying federal suits
filed before favorable termination. Id. at 2158-59. The
Court decided that where a claim necessarily
challenges a state criminal case, “there is no reason to

simply because the litigant advancing that claim cannot satisfy one
or more of the statutory requirements of §2254. Those statutory
requirements establish the conditions required before a federal
court can grant relief on claims falling within the domain of
habeas—they do not define the domain of habeas itself. Instead,
whether a claim falls within the domain of habeas corpus depends
on the type of relief sought. Claims seeking to invalidate a state
criminal judgment or custody fall within that domain, whether or
not the litigant advancing the claim can obtain relief under §2254.

App. 130
put the onus to safeguard comity on district courts
exercising case-by-case discretion[.]” Id. at 2158. The
Appellees here advance precisely the same proposal
rejected by the Court in McDonough, arguing that
Savory’s concerns about preclusion and abstention in
suits challenging extant state convictions could be
mitigated by staying those suits until the criminal case
came to an end. Doc. 22 (Appellees’ Response Br.) at 30.
That proposal was rejected in McDonough and it
should be rejected here as well.
Third, the Court in McDonough was concerned
about putting criminal defendants/civil plaintiffs in a
position where their federal claims might expire. 139 S.
Ct. at 2158. Along the same lines, it worried that an
accrual rule that did not require favorable termination
would “potentially prejudic[e] litigants[.]” Id. at 2158.
In his briefs, Savory has highlighted the extreme
prejudice that plaintiffs like him would suffer if their
claims accrued upon release. Doc. 28 at 18-21; Doc. 58
at 11-12. And he has noted the preclusion and
abstention problems that would result. Doc. 12 at 4142. Doc. 28 at 18-21; Doc. 58 at 9-11. In summary, if
the Appellees’ rule were adopted, Savory’s §1983 claims
would have required dismissal in federal court at the
time of his release from custody, and the statute of
limitations would have run by the time his conviction
was set aside. McDonough sought to avoid these
unsavory results.
Fourth, McDonough noted that without a favorabletermination requirement, many litigants would file
federal claims just to preserve them, “cluttering
dockets with dormant, unripe cases.” 139 S. Ct. at

App. 131
2158. Again, Savory has discussed at length the flood
of unmeritorious cases that would clutter district court
dockets if the Appellees’ rule became the law. Doc. 12
at 38-41; Doc. 28 at 21-22. Every state criminal
defendant released from custody could come to federal
court and raise constitutional claims litigated in state
criminal proceedings. McDonough sought to limit the
set of claims that make it to federal court by extending
the favorable-termination requirement.
Finally, McDonough emphasized that deferred
accrual “respects the autonomy of state courts[.]” 139
S. Ct. at 2159. As Savory has argued, the district
court’s early accrual rule pays no respect to principles
of comity or the role of federal and state courts in our
federal system. Doc. 12 at 19-21, 38-39; Doc. 28 at 1618; Preiser, 411 U.S. at 491; Younger, 401 U.S. at 44.
***
The reasoning and the policy concerns invoked in
McDonough apply with equal force to this appeal. In
this way, too, McDonough confirms that Savory’s
position is correct.
IV.

THIS COURT SHOULD RECONSIDER
ASPECTS OF JOHNSON AND MANUEL II
THAT ARE AFFECTED BY McDONOUGH

This Court’s prior cases are largely consistent with
the favorable-termination rule discussed in McDonough
and Heck.3 Savory’s case, however, presents subsidiary
3

McDonough confirms Newsome v. McCabe, 256 F.3d 747, 749 (7th
Cir. 2001), which held that a claim “based on wrongful conviction
and imprisonment did not accrue until the pardon,” even though

App. 132
accrual issues that were addressed by this Court in
Johnson v. Winstead, 900 F.3d 428 (7th Cir. 2018), cert.
denied, No. 18-1013, 2019 WL 450291 (U.S. June 28,
2019) & No. 18-1186, 2019 WL 1172186 (U.S. June 28,
2019), and Manuel v. Joliet, 903 F.3d 667 (7th Cir.
2018) (Manuel II), cert. denied, No. 18-1093, 2019 WL
861187 (U.S. June 28, 2019). Parts of Johnson and
Manuel II do not survive McDonough, and Savory’s
case presents an opportunity for this Court to address
those aspects of Johnson and Manuel II sitting en banc,
if it so chooses.
A. Johnson’s View That Constitutional Claims
Accrue At Different Times During A Single
Criminal Case Should Be Overruled
Johnson holds that Heck’s deferred-accrual rule
governs claims alleging that a conviction was obtained
in violation of the Fifth Amendment right against selfincrimination, and it categorically barred such claims
“unless the plaintiff can show that the conviction has
already been invalidated.” 900 F.3d at 439; see also id.
at 439 n.2 (decision circulated under Circuit Rule
40(e)). This holding of Johnson correctly applies
the plaintiff had been released earlier; it confirms this Court’s
decisions pegging accrual to exoneration, and not to earlier release
from custody, Doc. 28 at 12 & n.7; and it confirms the many cases
holding that wrongful conviction claims accrue with invalidation
of the conviction, Doc. 12 at 23-25 & n.7. Moreover, as the panel
explained, the decisions in Dewalt v. Carter, 224 F.3d 607 (7th Cir.
2000), Simpson v. Nickel, 450 F.3d 303 (7th Cir. 2006), Burd v.
Sessler, 702 F.3d 429 (7th Cir. 2012), and Whitfield v. Howard, 852
F.3d 656 (7th Cir. 2017), are consistent with McDonough’s
favorable-termination rule. Savory, 912 F.3d at 1036-38; Doc. 12
at 31-37; Doc. 28 at 7-10 & nn.4-6; Doc. 58 at 7-8 & nn.2-3.

App. 133
McDonough. Savory alleges Fifth Amendment claims,
R.1 ¶¶ 5,31-55, 88-98, and those claims did not accrue
until his conviction was set aside.
But Johnson also held that not all of the plaintiff’s
Fifth Amendment claims were timely. Johnson was
arrested and indicted in June 2004; he was first
convicted in October 2007; a state appellate court
reversed that conviction based on a trial error and
remanded for a new trial in September 2010; Johnson
was convicted again in March 2012; the appellate court
reversed again in December 2014; and Johnson filed
suit in August 2015. 900 F.3d at 432-34. This Court
concluded that, because Johnson’s first conviction had
been reversed and remanded for a new trial in 2010,
any claims relating to his first criminal conviction
accrued with that earlier reversal and were time
barred by the time the suit was filed in 2015. Id. at
432, 439.
This aspect of Johnson does not survive
McDonough. In a situation where a criminal defendant
is convicted multiple times in the same criminal case,
a state-court appellate decision along the way that
reverses and remands for a new trial does not
represent a favorable termination of the criminal case
if on remand the case continues and another conviction
is obtained. Though a criminal defendant whose
conviction is reversed and who is awaiting retrial
might technically satisfy Heck’s requirement of
showing “that the conviction or sentence has been
reversed on direct appeal,” 512 U.S. at 486-87, he still
cannot establish that “the criminal proceeding has
ended in the defendant’s favor,” as McDonough

App. 134
requires, 139 S. Ct. at 2158. Put differently, when a
single criminal case is at issue, at each moment from
the issuance of legal process until the case’s final
favorable termination, the criminal defendant’s
constitutional claims either impugn a criminal
proceeding or a criminal judgment (or both), and under
Heck and McDonough they are therefore subject to a
deferred-accrual rule. Properly understood, Heck and
McDonough establish that all claims challenging a
state criminal case or its resulting judgments must
await a final favorable termination of that case.4

4

The fact that the Court held Johnson for its decision in
McDonough and then denied certiorari (instead of granting,
vacating, and remanding) does not change the analysis. Winstead,
No. 18-1013, 2019 WL 450291 (U.S. June 28, 2019) (denying police
officers’ petition); Johnson, No. 18-1186, 2019 WL 1172186 (U.S.
June 28, 2019) (denying conditional cross-petition). That is because
the cert. petition filed by the officers in the Supreme Court
advocated for an early accrual rule. Petition, Winstead, No. 181013, at i, available at https://www.supremecourt.gov/
DocketPDF/18/18-1013/86711/20190201155353710_Winstead
%20Cert%20Petition.pdf. That position was foreclosed by
McDonough. Meanwhile, the petition filed by Johnson was
conditional, and it asked for review of the multiple-conviction
aspect of Johnson addressed here only if the Court granted the
officers’ petition. Conditional Cross-Petition, Johnson, No. 18-1186
at 5, available at https://www.supremecourt.gov/DocketPDF/18/181186/91014/20190306191932107_johnson%20Conditional%20CR
OSS-Petition%20%20For%20Writ%20Of%20Certiorari
%20ELECTRONIC.pdf. In other words, the Supreme Court did not
need to correct the portions of Johnson that were consistent with
McDonough, and so it denied the officers’ petition; and the Court
was not asked to consider the portions of Johnson that conflict
with McDonough, except in the event that it granted the officers’
petition, which it did not.

App. 135
If there were any doubt that this aspect of Johnson
is no longer good law, McDonough’s reasoning,
discussed above, leaves no room for Johnson’s rule,
which would cause federal civil claims relating to a
recently reversed state conviction to spring to life
amidst an ongoing re-prosecution in the same state
criminal case. That rule ignores the analogy to
malicious prosecution; it would spawn parallel
litigation and create conflicting judgments between
state and federal courts; and it would prejudice
criminal defendants/civil plaintiffs in exactly the ways
the Supreme Court found inappropriate in McDonough.
Supra Parts III.B-D.
Like Johnson, Savory was twice convicted of the
same crimes. R.1 ¶ 1. All of his claims—those relating
to his first criminal trial, his first criminal conviction,
his trial between the two convictions, and his second
conviction—accrued with his pardon. To the extent that
Johnson suggests a different result, it should be
reconsidered following McDonough.
B. Manuel II’s Rejection of Tort Analogies
Should Be Overruled
On remand from the Supreme Court in Manuel, this
Court was asked to determine the accrual rule for a
§1983 claim alleging an unlawful detention pursuant to
legal process. Manuel II, 903 F.3d at 668.5 Manuel

5

Manuel claimed he was prosecuted based on fabricated evidence,
Manuel v. Joliet, 137 S. Ct. 911, 914 (2017), just like McDonough,
McDonough, 139 S. Ct. at 2153. Manuel alleged a Fourth
Amendment illegal seizure, 137 S. Ct. at 915-16, while McDonough

App. 136
contended that his claims accrued with favorable
termination of his criminal case, arguing by analogy to
malicious prosecution. Manuel II, 903 F.3d at 669-70.
This Court rejected the argument, concluding that “the
Justices deprecated the analogy to malicious
prosecution” in Manuel, and that Manuel’s claim
therefore accrued when he was released from custody,
not with the favorable termination of his criminal case.
Id.
To the extent that the Supreme Court deprecated
the analogy to malicious prosecution in Manuel, it
extolled it again in McDonough, relying principally on
that analogy to support its conclusion that claims
alleging constitutional violations attendant to state
criminal proceedings accrue only with favorable
termination. Supra Part III.A. Savory alleges that he
was unlawfully detained after legal process issued, R.1
¶¶ 99-103, and McDonough dictates—contrary to
Manuel II—that those claims accrued at the same time
as all of his other claims, with his pardon and the
favorable termination of his criminal case.6
alleged that his Fourteenth Amendment right to due process was
violated, McDonough, 139 S. Ct. at 2155.
6

As with Johnson, the Supreme Court held Manuel II for its
decision in McDonough and then denied certiorari. Manuel, No. 181093, 2019 WL 861187 (U.S. June 28, 2019). Again, this does not
change the analysis. Like Johnson, the petition in Manuel II asked
the Court to impose an early accrual rule, Petition, Manuel, No.
18-1093, at i, available at https://www.supremecourt.gov/
DocketPDF/18/18-1093/89139/20190221170828692_Cert%20
Pet.pdf; a possibility that was ruled out by McDonough.
Separately, it is important to point out that Manuel II’s
conclusion that Manuel’s Fourth Amendment claim accrued when

App. 137
CONCLUSION
Johnson observed that “[a]pplying Heck
categorically is sound as a matter of limitations law
where the need for clear rules is especially acute.” 900
F.3d at 439. McDonough reiterated that “clear accrual
rules are valuable[.]” 139 S. Ct. at 2160. This Court can
adopt Savory’s proposal that §1983 cases challenging
state criminal proceedings and their resulting
judgments must wait until the criminal case
terminates favorably; or it can adopt the Appellees’
rule, which makes the accrual of §1983 claims
attacking state criminal cases dependent not on
favorable termination, but instead on whether habeas
is “available” to the particular litigant before the court.
Savory’s rule is categorical, clear, and easy to apply;
the Appellees’ rule is a morass. Fortunately,
McDonough and Heck mandate Savory’s approach.
Savory’s criminal case terminated when his conviction
was set aside by the pardon. Doc. 22 at 1 (conceding
that the pardon set aside Savory’s conviction). His
lawsuit filed within two years of that date is timely.
he was released from custody is still correct, but under the
different theory that the illegal seizure continued until he was
released from custody. 903 F.3d at 670 (“The wrong of detention
without probable cause continues for the duration of the
detention.”); see also McDonough, 139 S. Ct. at 2158 n.7. Recall
that prosecutors favorably terminated Manuel’s criminal case one
day before he was released. Manuel II, 903 F.3d at 669.
Accordingly, the constitutional violation outlasted the criminal
case. If Manuel had been held for a limited time, after which
prosecutors dropped charges and terminated the criminal case,
then McDonough would control and Manuel’s claim would have
accrued with the later favorable termination, and not the earlier
release from custody.

App. 138
July 15, 2019
RESPECTFULLY SUBMITTED,
JOHNNIE LEE SAVORY
By: /s/ Steven Art
Counsel for Johnnie Lee Savory
Arthur Loevy
Jon Loevy
Steven Art
Julia Rickert
Megan Pierce
LOEVY & LOEVY
311 N. Aberdeen St., 3rd Fl.
Chicago, IL 60607
(312) 243-5900
steve@loevy.com
Flint Taylor
John L. Stainthorp
PEOPLE’S LAW OFFICE
1180 N. Milwaukee Ave.
Chicago, IL 60642
(773) 235-0700
Locke E. Bowman
Tony Balkissoon
THE RODERICK AND SOLANGE
MACARTHUR JUSTICE CENTER
Northwestern University
School of Law

App. 139
375 E. Chicago Ave.
Chicago, IL 60611
(312) 503-1271
***
[Certificate of Compliance, Certificate of Compliance
with this Court’s Electronic Case Filing Procedure
(C)(3) and Certificate of Service Omitted in the
Printing of this Appendix]

App. 140

APPENDIX L
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 17-3543
[Filed July 15, 2019]
__________________________
JOHNNIE L. SAVORY,
)
Appellant-Plaintiff,
)
)
v.
)
)
CHARLES CANNON, et al., )
Appellees-Defendants. )
__________________________ )
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division
No. 1:17-cv-00204
The Honorable Gary Feinerman, Judge Presiding.
APPELLEES-DEFENDANTS’ SUPPLEMENTAL
BRIEF REGARDING THE BEARING OF THE
SUPREME COURT!S OPINION IN
MCDONOUGH V. SMITH

App. 141
Counsel for Appellees-Defendants:
JAMES G. SOTOS
JOHN J. TIMBO
SARA J. SCHROEDER
LISA M. MEADOR
THE SOTOS LAW FIRM, P.C.
141 W. Jackson Blvd., #1240A
Chicago, IL 60604
(630) 735-3300
jsotos@jsotoslaw.com
jtimbo@jsotoslaw.com
sschroeder@jsotoslaw.com
lmeador@jsotoslaw.com
***
[Appearance & Circuit Rule 26.1 Disclosure
Statements, Table of Contents and
Table of Authorities Omitted in the
Printing of this Appendix]

App. 142
INTRODUCTION
This case and McDonough v. Smith, 139 S. Ct. 2149
(2019), both involve the accrual of § 1983 claims under
Heck v. Humphrey, 512 U.S. 477 (1994), but that is all
they have in common. McDonough resolved an intercircuit conflict on the specific issue of whether a
criminal defendant’s fabrication of evidence claim
immediately accrued notwithstanding the pendency of
his criminal case (similar to the false arrest claim in
Wallace v. City of Chicago, 549 U.S. 384 (2007)), or
whether accrual on the claim was Heck-barred until the
proceedings concluded in the defendant’s favor. Absent
from McDonough was any reference to the intra-circuit
conflict presented here on the question of whether
Heck’s favorable termination rule, regardless of the
nature of the underlying § 1983 claim, drops away once
the availability of habeas relief is foreclosed by a
prisoner’s release from custody. Similarly, McDonough
did not address the question of exceptional importance
presented here in regards to the panel decision
impermissibly barring former prisoners from seeking
recompense under § 1983, unless they can first
convince a state governor to pardon them, in
contravention of the remedial purposes underlying
§ 1983.
That said, McDonough did reaffirm one overriding
principle of relevance to the present case, specifically
that Heck “is rooted in pragmatic concerns with
avoiding parallel criminal and civil litigation over the
same subject matter….” McDonough, 139 S. Ct. at
2157. Those concerns, firmly grounded in principles of
federalism and comity, are prominent when a prisoner

App. 143
in custody chooses § 1983 instead of the federal habeas
corpus statute to “collateral[ly] attack [ ] the conviction
through the vehicle of a civil suit.” Heck v. Humphrey,
512 U.S. at 480. But once a prisoner is released from
custody, those concerns dissipate and Heck is no longer
needed to supplement the well-established doctrines of
res judicata and collateral estoppel as the guardians of
federalism and comity. To hold otherwise would
illogically condition a released prisoner’s right to
pursue a meritorious federal civil rights claim on his
ability to first convince a given State’s elected executive
to grant him a gubernatorial pardon.
ARGUMENT
This appeal concerns whether Heck v. Humphrey
bars a prisoner who is no longer in custody and no
longer has access to habeas corpus from challenging
the legality of his conviction under § 1983. A majority
of Supreme Court Justices, and a line of cases from this
Circuit, have said that Heck does no such thing. See
Spencer v. Kemna, 523 U.S. 1, 18-22, 25 n.8 (1998)
(considered dictum of five Supreme Court justices
pronouncing that individuals out of custody, with no
access to habeas, may bring § 1983 actions alleging the
unconstitutionality of a conviction irrespective of Heck’s
favorable termination rule); Hoeft v. Joanis, 727 Fed.
Appx. 881, 883 (7th Cir. 2018) (“[This Circuit] has ruled
that Heck does not apply when a an out-of-custody
plaintiff sought collateral review before a release from
prison….”); Sanchez v. City of Chicago, 880 F.3d 349,
356 (7th Cir. 2018) (holding Heck does not bar § 1983
claims challenging the legality of a conviction where
plaintiff is no longer in custody for habeas purposes

App. 144
and pursued appropriate collateral relief while in
custody); Whitfield v. Howard, 852 F.3d 656, 664-65
(7th Cir. 2017) (Heck does not bar § 1983 actions where
plaintiff is out of custody and pursued appropriate
collateral relief while in custody); Burd v. Sessler, 702
F.3d 429, 436 (7th Cir. 2012) (holding § 1983 action
may proceed without regard to Heck so long as released
plaintiff pursued collateral relief while in custody so as
not to skirt the Heck bar); Simpson v. Nickel, 450 F.3d
303, 307 (7th Cir. 2006) (§ 1983 claims challenging the
fact or duration of custody accrue when custody ends
because Heck is inapplicable when habeas is
unavailable); DeWalt v. Carter, 224 F.3d 607, 617-18
n.6 (7th Cir. 2000) (invoking Circuit Rule 40(e) to
overrule Circuit precedent, based on Spencer, that had
held Heck barred § 1983 claims challenging the legality
of a conviction even if plaintiff was no longer in custody
and had no access to habeas relief).
By contrast, McDonough examined a wholly
separate and narrow issue: whether a due process
fabrication of evidence claim accrued when the
evidence was first used in McDonough’s criminal case,
or later, when he was acquitted. McDonough, 139 S. Ct.
at 2154-55. At the outset and throughout the opinion,
McDonough emphasized that it was only addressing
the accrual rule for that distinct issue. See id. at 2155
n.2, 2160 n.10 (declining to address accrual rules for
claims that are not before the Court).
I. McDonough did not address plaintiffs who are
no longer in custody.
The most important distinction between
McDonough and Savory is the status of the plaintiff. In

App. 145
determining whether Heck’s favorable termination rule
bars a § 1983 claim, McDonough mentions two types of
plaintiffs: those who, as in Heck, were convicted and
still incarcerated and those who, like the McDonough
plaintiff, were acquitted of criminal charges. See id. at
2157-58. McDonough makes no mention of a plaintiff
like Savory, who served his sentence, gained his
freedom, and therefore, no longer had access to habeas
corpus as a means to redress alleged constitutional
harms. As a result, McDonough did not consider
whether Heck’s favorable termination rule should be
dispensed with once the pragmatic concern which
spawned Heck – the potential clash between § 1983 and
the habeas corpus statute – is eliminated upon release
from custody.
McDonough applied the Heck bar to a fabrication of
evidence claim because it was substantively
indistinguishable from the malicious prosecution claim
at issue in Heck. See id. at 2156-2158. By contrast, the
instant case has nothing to do with the application of
the Heck bar to specific types of § 1983 claims, but
rather focuses more broadly on whether Heck retains
any vitality in connection with any civil rights claims
once the plaintiff has been released from custody.
II. McDonough did not analyze or mention Heck’s
concurrence or Spencer v. Kemna.
At the heart of this appeal is the long-simmering
debate over Justice Souter’s four-Justice concurrence in
Heck, expanded to five Justices in Spencer v. Kemna,
which proclaimed that “a former prisoner, no longer in
custody, may bring a § 1983 action establishing the
unconstitutionality of a conviction or confinement

App. 146
without being bound to satisfy a favorable termination
requirement that would be impossible as a matter of
law for him to satisfy.” Spencer, 523 U.S. at 21.
McDonough had no occasion to address that debate;
rather, the Court relied upon well-settled aspects of
Heck to hold that plaintiff’s fabrication of evidence
claim accrued when he was acquitted. McDonough, 139
S. Ct. at 2158. To be sure, Heck’s favorable termination
rule appropriately applies to fabrication of evidence
claims that fall directly within the purview of habeas
corpus, which is the exclusive remedy for a prisoner
challenging the fact or duration of his confinement. See
Heck, 512 U.S. at 480-82. In that regard, there is little
doubt that a civil finding that the prosecutor fabricated
the evidence presented against McDonough would have
wreaked havoc with still-pending state criminal
charges which were premised upon that very same
evidence. In the present case, by contrast, there have
been no significant criminal proceedings since Savory
was paroled in 2006, and no criminal proceedings at all
since he was released from parole in 2011.
In reaching the unremarkable conclusion that
McDonough’s civil claim against his prosecutor could
not proceed while he was being prosecuted, McDonough
made no mention of Justice Souter’s opinions in Heck
and Spencer or of any of the half dozen decisions from
this Circuit that conflict with the panel decision. See
supra, pp. 2-3. Indeed, McDonough does not even
remotely bear on the salient question presented in this
appeal, which is whether Heck’s favorable termination
rule falls away once access to habeas is removed. See
Simpson v. Nickel, 450 F. 3d at 306-07 (“[A] prisoner
whose grievance implies the invalidity of ongoing

App. 147
custody must seek review [through habeas corpus.]
Only after the custody is over may the prisoner use
§ 1983 to seek damages against persons who may have
been responsible; indeed, the § 1983 claim does not
accrue until the custody ends.”).
Beyond not citing or discussing any of the key
authorities relevant to this appeal, McDonough said
nary a word about the interplay between habeas corpus
and § 1983, beyond acknowledging that “the pragmatic
considerations discussed in Heck apply generally to
civil suits within the domain of habeas corpus….”
McDonough, 139 S. Ct. at 2158. With McDonough
having no occasion to consider whether Heck drops
away when the prisoner is released and habeas corpus
becomes unavailable, the view of the five Spencer
Justices remains the last word on the issue: Heck is no
bar to § 1983 actions brought by released prisoners who
are no longer in custody.
III.

McDonough did not contemplate principles
of federalism, judicial economy, the scope
of § 1983 or finality as they apply in the
context of this appeal.

McDonough further rested the “soundness” of its
holding on the real world consequences that would
result from civil fabrication of evidence claims being
filed when criminal defendants first became aware
such evidence was being used against them.
McDonough, 139 S. Ct. at 2158. The overriding concern
was that parallel litigation created by concurrent
§ 1983 civil suits and criminal trials “would run
counter to core principles of federalism, comity,
consistency, and judicial economy” (Id. at 2159),

App. 148
principles intended to minimize federal interference in
state criminal proceedings and avoid circumvention of
the exclusivity of habeas relief. See Heck, 512 U.S. at
485-87. The McDonough Court was unpersuaded that
discretionary district court options to stay or abstain
from active litigation would safeguard comity concerns
to a degree that justified the filing of civil lawsuits
simultaneous with parallel criminal proceedings.
McDonough, 139 S. Ct. at 2158-59.
In the present context, by contrast, district courts
addressing § 1983 claims brought by released prisoners
are armed with the full array of comity-based
preclusion doctrines, including res judicata, collateral
estoppel, and Rooker-Feldman,1 which adequately
safeguard principles of federalism and ensure that only
meritorious claims will occupy significant judicial
resources. See Whitfield v. Howard, 852 F.3d at 664 (“A
challenge [brought by a released prisoner] that would
undermine a state-court conviction or sentence would
still face Rooker-Feldman jurisdictional problems or res
judicata issues in a lower federal court.”). Indeed, when
a former prisoner has already unsuccessfully litigated
constitutional claims, either through direct appeal,
postconviction, and/or habeas corpus, the finality
principles of claim and issue preclusion will generally
signal a prompt end to what could otherwise be endless
litigation. For instance, in Sanchez v. City of Chicago,

1

Under the Rooker-Feldman doctrine, lower federal courts do not
have subject matter jurisdiction over claims seeking review of state
court judgments. See Rooker v. Fidelity Trust Co., 263 U.S. 413
(1923); District of Columbia Court of Appeals v. Feldman, 460 U.S.
462 (1983).

App. 149
880 F.3d at 356-58, this Court agreed with plaintiff’s
assertion that, because he was not in custody, Heck did
not bar his § 1983 claim alleging he had been framed,
but nonetheless concluded that principles of preclusion
barred his suit due to final state court determinations
in his criminal case. By barring § 1983 litigation by
plaintiffs who unsuccessfully pursued collateral relief
while incarcerated, principles of claim and issue
preclusion ensure that federal courts are not cluttered
with federal challenges to state criminal convictions,
absent a justifiable basis to warrant equitable relief
from such preclusion, such as the discovery of new
evidence. See Sornberger v. City of Knoxville, Ill., 434
F.3d 1006, 1023 (7th Cir. 2006) (claim and issue
preclusion are equitable doctrines, which must not be
applied “unless it is clear that no unfairness results to
the party being estopped.”); United States v. Luna,
2019 WL 1098936, at *4 (N.D. Ill. Mar. 8, 2019) (a
party may avoid collateral estoppel by showing that
“newly discovered evidence was essential to a proper
decision in the prior action and ... that he was in no
way responsible for the lack of such evidence in the
prior action.”); Brokaw v. Weaver, 305 F.3d 660, 665-68
(7th Cir. 2002) (Rooker-Feldman does not apply if the
plaintiff did not have a reasonable opportunity to raise
the issue in state court proceedings.).
Indeed, and as suggested above, grounding the
dismissal of insubstantial claims on claim or issue
preclusion, rather than artificially extending Heck
beyond its intended reach, still ensures that the
overwhelming majority of § 1983 lawsuit challenges to
criminal convictions would be defeated at the outset
unless the plaintiff can demonstrate that “unfairness

App. 150
[would] resul[t] to the party being estopped.”
Sornberger, 434 F.3d at 1023. Thus, preclusion would
not bar a § 1983 claim by a plaintiff who alleged he was
framed, but was unable to previously have his
conviction overturned because his criminal case was
corrupted by concealment of evidence which only
surfaced, through no fault of the plaintiff, after he
completed his sentence. See Bembenek v. Donohoo, 355
F.Supp.2d 942, 948-50 (E.D. Wis. 2005) (finding § 1983
lawsuit challenging still-standing conviction was
permitted via Spencer and DeWalt, and was not barred
by preclusion doctrines because new evidence surfaced
after plaintiff’s release from custody).
On the other hand, extending Heck’s favorable
termination rule to released prisoners who no longer
have access to habeas corpus would effectively strip
away the last federal remedy available to a plaintiff
who discovers, after he is released and through no fault
of his own, that the criminal case against him was
corrupted. A rule of that kind would force such an
aggrieved plaintiff to first secure a gubernatorial
pardon before having access to federal court, in
contravention of the fundamental purposes of the Civil
Rights Act. See Cong. Globe, 42nd Cong., 1st Sess., 335,
374-376 (a primary purpose underlying 42 U.S.C.
§ 1983 was to provide a federal remedy to protect all
citizens against state sponsored infringement of
constitutional rights); Monroe v. Pape, 365 U.S. 167,
180 (1961), overruled on other grounds by Monell v.
Dep’t of Soc. Servs. of City of New York, 436 U.S. 658
(1978) (“It is abundantly clear that one reason the
legislation was passed was to afford a federal right in
federal courts because, by reason of prejudice, passion,

App. 151
neglect, intolerance or otherwise, state laws might not
be enforced and the claims of citizens . . . might be
denied by the state agencies.”).
On the flip side, imposing such a condition on
§ 1983 claims can also perversely toll the statute of
limitations in perpetuity as former prisoners attempt
to persuade successive state governors every four years
for a pardon. This very real likelihood destroys any
possibility of finality for potential civil defendants who
have a right to rely on a definitive time when they can
no longer be sued. See United States v. Kubrick, 444
U.S. 111, 125 (1979) (the very purpose of statutes of
limitations is as compelling as the statutory rights to
which they are attached.). Indeed, the open-ended
possibility of a § 1983 lawsuit which could be triggered
at any time on the whim of a receptive state governor
offends the very purpose of a statute of limitations,
which provides a reasonable time for plaintiffs to
develop and assert their claims while “protect[ing]
defendants and the courts from having to deal with
cases in which the search for truth may be seriously
impaired by the loss of evidence….” Id.
Presently, even the current reach of Heck to
prisoners in custody commonly results in the filing of
reversed conviction claims twenty, thirty, or even more
years after the alleged misconduct. This lengthy delay
in accrual is well-justified given federalism concerns
surrounding a still-in-custody prisoner and the very
nature of wrongful conviction claims. But extending
Heck to encompass released prisoners effectively
eliminates principles of finality altogether. None of

App. 152
these important concerns, central to the instant appeal,
were even touched upon in McDonough.
CONCLUSION
McDonough did not address whether a plaintiff who
is no longer in custody and has no access to habeas
corpus should be subjected to Heck’s favorable
termination rule, nor did it address the key issues
concerning the scope of the civil rights act or principles
of finality which are at the heart of this appeal.
Consequently, McDonough’s common sense extension
of the Heck bar to encompass fabrication of evidence
claims brought by an acquitted criminal defendant has
no bearing on the pending appeal before this Court.
Date: July 15, 2019
Respectfully submitted,
/s/ Sara J. Schroeder
SARA J. SCHROEDER, Atty. No. 6322803
One of the Attorneys for Appellees- Defendants
The Sotos Law Firm, P.C.
141 W. Jackson Blvd., #1240A
Chicago, IL 60604
(630) 735-3300
sschroeder@jsotoslaw.com
***
[Certificate of Service Omitted in the
Printing of this Appendix]

